<html>
<title> - THE WATER RESOURCES DEVELOPMENT ACT OF 2007: A REVIEW OF IMPLEMENTATION IN ITS THIRD YEAR</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                          THE WATER RESOURCES
                        DEVELOPMENT ACT OF 2007:
                       A REVIEW OF IMPLEMENTATION
                           IN ITS THIRD YEAR

=======================================================================


                                (111-92)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 3, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                 U.S. GOVERNMENT PRINTING OFFICE
55-276                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Conrad, David R., Senior Water Resources Specialist, National 
  Wildlife Federation............................................    63
Darcy, Hon. Jo-Ellen, Assistant Secretary of the Army for Civil 
  Works, Department of the Army..................................    32
Fitzgerald, Steve, Flood Committee Chair, Harris County Flood 
  Control District, the National Association of Flood and 
  Stormwater Management Agencies (NAFSMA)........................    63
Larson, Esq., Amy, President, National Waterways Conference......    63
Leone, Michael A., Port Director, Maritime Administration, 
  Massachusetts Port Authority (Massport), American Association 
  of Port Authorities............................................    63
Pallasch, Brian, Co-chair, Water Resources Coalition, American 
  Society of Civil Engineers.....................................    63
Van Antwerp, Lt. Gen. Robert L., Commanding General of the U.S. 
  Army Corps of Engineers, Department of the Army................    32

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Johnson, Hon. Eddie Bernice, of Texas............................    81
Mitchell, Hon. Harry E., of Arizona..............................    87
Richardson, Hon. Laura, of California............................    88
Scalise, Hon. Steve, of Louisiana................................    92

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Conrad, David R..................................................    94
Darcy, Hon. Jo-Ellen.............................................   118
Fitzgerald, Steve................................................   125
Larson, Esq., Amy................................................   131
Leone, Michael A.................................................   147
Pallasch, Brian..................................................   152

                       SUBMISSIONS FOR THE RECORD

Committee on Transportation and Infrastructure, Majority Staff, 
  ``The Water Resources Development Act of 2007 Public Law 110-
  114 A Report on Implementation in the Third Year,'' report.....     5
Darcy, Hon. Jo-Ellen, Assistant Secretary of the Army for Civil 
  Works, Department of the Army:.................................
      Response to questions from Hon. Bishop, a Representative in 
        Congress from the State of New York......................    39
      Response to questions from Hon. Oberstar, a Representative 
        in Congress from the State of Minnesota..................    61
Van Antwerp, Lt. Gen. Robert L., Commanding General of the U.S. 
  Army Corps of Engineers, Department of the Army, response to 
  questions from Hon. Oberstar, a Representative in Congress from 
  the State of Minnesota.........................................    57

                         ADDITION TO THE RECORD

American Shore and Beach Preservation Association, written 
  testimony......................................................   162


[GRAPHIC] [TIFF OMITTED] 55276.001

[GRAPHIC] [TIFF OMITTED] 55276.002

[GRAPHIC] [TIFF OMITTED] 55276.003

[GRAPHIC] [TIFF OMITTED] 55276.004

[GRAPHIC] [TIFF OMITTED] 55276.005

[GRAPHIC] [TIFF OMITTED] 55276.006

[GRAPHIC] [TIFF OMITTED] 55276.007

[GRAPHIC] [TIFF OMITTED] 55276.008

[GRAPHIC] [TIFF OMITTED] 55276.009



THE WATER RESOURCES DEVELOPMENT ACT OF 2007: A REVIEW OF IMPLEMENTATION 
                           IN ITS THIRD YEAR

                              ----------                              


                        Wednesday, March 3, 2010

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The Committee met, pursuant to call, at 12:28 p.m., in Room 
2167, Rayburn House Office Building, Hon. James Oberstar 
[Chairman of the Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order for the second time today. We 
meet today to review implementation of the Water Resources 
Development Act of 2007.
    I will parenthetically note for the record that this is a 
milestone in the Committee's oversight role. Since I was 
elected Chairman, it is the 50th oversight hearing conducted by 
the Committee since January of 2007.
    My predecessor's, for whom I was administrative assistant, 
portrait hangs in the corner of the Committee room. John 
Blatnik served as Chair of this Committee for 4 years. He 
served in the House 28 years and was the first Chairman of the 
Special Investigative Committee on the Federal Aid Highway 
Program, established at the direction of Speaker Rayburn 3 
years after the interstate highway program was enacted to 
inquire into allegations of fraud, corruption, and abuse in the 
implementation of the interstate program and the Highway Trust 
Fund.
    There were just scattered reports of abuse of the right of 
way acquisitions, of construction practices, of concrete not 
being poured that was not up to engineering standards of 
bridges that were built that were not 16 feet but a lower 
elevation. And Speaker Rayburn said, ``I don't want this 
largest public works program in the history of the country and 
maybe in the history of the world to get off to a bad start.''
    And John Blatnik was a combat paratrooper in World War II, 
served behind Nazi lines in what is today Slovenia, rescuing 
American airmen shot down by the Nazis hiding in haystacks and 
barns and grottos to stay out of the reach of the Nazi forces. 
He was a tough guy. He was the right guy to select for that 
responsibility, meticulous in his work.
    And the result of the work of the Subcommittee was that, 
among other things, no State had internal audit and review 
procedures for their highway programs. They had never seen as 
much money as was coming out of the Highway Trust Fund, and 
they didn't know how to handle it and weren't prepared to 
handle it. As a result of those investigations, every State 
adopted internal budget review management procedures.
    Furthermore, 36 people--contractors, State officials, and 
Federal highway--then Bureau of Public Roads personnel--went to 
Federal and State prison; and lessons were learned in the 
contractor community. But it was tough oversight by this 
Committee, meticulous, thorough review of the work that kept 
the Federal highway program on a straight and even path.
    But we are not here to review corruption or fraud or abuse 
but rather the principle of oversight which is to--just as the 
executive is directed by the Constitution to take care that the 
laws are faithfully executed, so is the legislative branch 
directed to ensure that the executive does its job properly, 
that laws are implemented as intended by Congress, and also to 
learn lessons from implementation that may result in further 
legislative changes.
    We enacted the Water Resources Development Act on November 
8, 2007, overriding a Presidential veto. In the history of the 
Congress, there have been 1,174 vetoes; and only 106 had been 
overridden. Ours was the 107th.
    I must give credit to Mr. Mica, who led the charge on the 
House floor; Ms. Johnson, who is Chair of the Water Resources 
Subcommittee. I was in the hospital having my neck operated on, 
installing titanium rods to overcome the adverse effects of a 
bicycling accident 20 years earlier that is now starting to cut 
off use of hands and feet.
    So, without my presence on the floor, the House overrode 
that veto by a vote of 361 to 54. The Senate followed suit two 
days later, 79-14. That is a really strong affirmation of the 
principles of that bill.
    I go into some detail because this wasn't just an 
afterthought of action. That bill was the culmination of 7 
years of pent-up demand for projects, for authorization of 
funding of the needs of navigation, flood control, water 
resource--water protection, levees, restoring the Everglades, 
and a whole host of other issues.
    The bill had such enormous support because Mr. Mica and I 
worked together right at the outset of the session to scrub all 
of the projects that had passed this Committee in the three 
previous Congresses but had never been acted on, at least in 
one session, never acted on by the Senate Environment and 
Public Works Committee and never passed by the Senate. We never 
got to conference on those issues. But they had passed the 
House.
    So let us start there with the projects that we know, and 
let us have a new process by which every Member must sign a 
document that he has no personal, family, or financial interest 
in the project and put all of the projects on our Committee web 
so we have complete transparency and openness.
    Among those 900 projects were new authorities for the 
Florida Everglades, the restoration of the coastal wetlands of 
Louisiana and Mississippi following Hurricanes Katrina and 
Rita, the modernization of the water transportation system, 
upgrading the five principal locks on the Mississippi and two 
on the Illinois River respectively from 600 to 1,200 feet.
    It is intolerable that barge traffic takes 820 hours round 
trip from Clinton, Iowa, to New Orleans, the world's most 
important export facility because the locks on the Mississippi 
and one each on the Ohio and Illinois were built in the 1930s. 
The 600 foot lengths in tows--the barge tows are 1,200 feet, 
and our competitors in Brazil have a 2,500-mile advantage and a 
3-day sailing advantage over our grain production in the upper 
Midwest. And the port in New Orleans can't be as efficient as 
it is designed to be because it takes so long for product to 
get there. So we included the modernization of those locks in 
that legislation.
    We also adopted reforms for the Corps of Engineers. The old 
paradigm of dam it, ditch it, drain it, which the Corps had 
been accused of, was going to change.
    We had hearings over many years to review how it would do 
mitigation, for example; and, in fact, we had an amendment in 
1978 that my Minnesota colleague, Republican colleague from 
Minnesota, Al Quie, from southeastern Minnesota, and I 
cosponsored to require mitigation to be done concurrently with 
the construction. Because it was so often the case that the 
Corps got to the end of the process and, oh, we would love to 
do that mitigation, but we ran out of money. And we completed 
the process, so we don't have time to do this, and we just 
throw the dredge spoils over the levee on the other side and 
damn the consequences.
    That has got to change, and we enacted--we had an amendment 
in the WRDA bill that would require mitigation to be done in 
advance or concurrently with the construction and the funding. 
Well, it hasn't been done. We reinforced that language in WRDA 
in 2007.
    Larger, more controversial projects have been the subject 
of numerous court cases and review by outside groups and 
controversy and the focus of a three-part series by the 
Washington Post, the New York Times, and many other newspapers 
saying the Corps was not doing its job properly.
    So we required, in that legislation, the Corps to submit 
larger, more controversial projects to outside independent 
review, to improve the quality of modeling and analysis, 
resulting in sound conclusions based on data, based on sound 
analysis. We directed the Corps to update how it plans and 
implements the projects.
    The principles of 1983, developed before the Corps had an 
environmental mission or before the no net loss of wetlands 
policy was adopted, those principles had to be updated and was 
directed to be done in WRDA 2007 to reflect sustainable 
development, rather than exploitive economic development such 
as the Mississippi River Gulf Outlet, to avoid unwise 
development of or, in fact, destruction of floodplains.
    But rather than swiftly and quickly embracing the reforms 
of WRDA 2007, the Corps has been slow to implement; and it has 
not followed the direct language of the statute and 
congressional intent.
    Today, we release a report that highlights several of the 
Corps' shortcomings on improved mitigation, independent review, 
and the planning principles guidelines. These were major 
subjects of our discussions over a period of years. They were 
the point of agreement between the House and the Senate that 
resulted in WRDA 2007 and in this enormous vote that we had on 
both sides of the aisle.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 55276.010
    
    [GRAPHIC] [TIFF OMITTED] 55276.011
    
    [GRAPHIC] [TIFF OMITTED] 55276.012
    
    [GRAPHIC] [TIFF OMITTED] 55276.013
    
    [GRAPHIC] [TIFF OMITTED] 55276.014
    
    [GRAPHIC] [TIFF OMITTED] 55276.015
    
    [GRAPHIC] [TIFF OMITTED] 55276.016
    
    [GRAPHIC] [TIFF OMITTED] 55276.017
    
    [GRAPHIC] [TIFF OMITTED] 55276.018
    
    [GRAPHIC] [TIFF OMITTED] 55276.019
    
    [GRAPHIC] [TIFF OMITTED] 55276.020
    
    [GRAPHIC] [TIFF OMITTED] 55276.021
    
    [GRAPHIC] [TIFF OMITTED] 55276.022
    
    [GRAPHIC] [TIFF OMITTED] 55276.023
    
    [GRAPHIC] [TIFF OMITTED] 55276.024
    
    [GRAPHIC] [TIFF OMITTED] 55276.025
    
    [GRAPHIC] [TIFF OMITTED] 55276.026
    
    [GRAPHIC] [TIFF OMITTED] 55276.027
    
    [GRAPHIC] [TIFF OMITTED] 55276.028
    
    [GRAPHIC] [TIFF OMITTED] 55276.029
    
    [GRAPHIC] [TIFF OMITTED] 55276.030
    
    The Corps' guidance for implementing mitigation was not 
issued until August 31 last year, 21 months after enactment. 
The Corps' field offices during the interim were trying to 
implement the statute without clear direction. Without the 
direction on formulating adequate mitigation plans, 
consultation with State and Federal resource agencies was not 
happening.
    Independent review, the Corps still has not supplied a 
definitive list of projects subject to the mandatory 
requirements. The reviews that have been undertaken were done 
without public notice, without public input. Even completed 
reviews are not routinely released publicly, way behind 
schedule.
    The President's budget, I was appalled to find the 
revisions would be 4 years late. That is in part due to the 
Council on Environmental Quality, part due to the Office of 
Management and Budget.
    The Corps has known and the Assistant Secretary prior to 
Ms. Darcy have known that this was the intent of Congress, this 
is a requirement of Congress, and it should have been leading 
the charge.
    The Corps has, in fact, implemented its programs beyond the 
authority, beyond the intent of Congress. An example, St. 
John's Bayou New Madrid Floodway. A court ruled that the Corps 
violated the Administrative Procedures Act, that it violated 
the Clean Water Act, the National Environmental Policy Act in 
its justification of building the project and ordered the Corps 
to halt the project and restore work already undertaken.
    Yazoo Backwater Area Pumps, a project I have been familiar 
with for many, many years, EPA ruled that the proposed project 
would have an unacceptable adverse effect on the fishery areas 
and the wildlife, adversely affecting 67,000 acres of wetland 
and other areas of United States and denied the permit.
    The Buford Dam-Lake Sidney Lanier, the court ruled again--
the court--the determination that the Corps had unlawfully 
changed the operating purposes of Buford Dam to supply water to 
Atlanta without authorization of Congress. The court gave the 
Corps 3 years to change its operation or get new authority from 
Congress.
    There are other shortcomings from the emphasis of WRDA 2007 
on transparency, accountability, and modernization. If the 
Corps is going to win the trust of the public, particularly the 
environmental community, and win rather than lose court cases, 
then it has to comply with the provisions of 2007. And that is 
where we are going to take this--that is why we have this 
review today and why we are going to review revisions to the 
planning principles, guidelines, application of the Davis-Bacon 
Act, streamlining project formulation. That is very important 
for people. Delivery process, sediment management, flexibility 
in financing projects, all of those are going to be the 
subject; and this is going to be the beginning of a dialogue 
between the legislative and executive branch to ensure that we 
together achieve our responsibility of serving the public, 
especially the water-dependent public and economy.
    Mr. Boozman?
    Mr. Boozman. Thank you, Mr. Chairman.
    Today, we are examining the progress the Army Corps of 
Engineers is making in implementing the provisions of the Water 
Resources Development Act of 2007. By the Corps' count, there 
are 726 individual sections in WRDA 2007 to be implemented. 
Most of these are projects that Congress has authorized the 
Corps to carry out.
    Some are policy provisions related to changes in how the 
Corps conducts its planning process. These provisions were very 
controversial as WRDA 2007 was being developed. We had a good 
debate on these issues; and, in the end, not all Members were 
content with the final outcome. Nevertheless, WRDA 2007 is now 
the law of the land; and we all support it being implemented as 
written.
    I will say that I support the Corps' carrying out the 
provisions of WRDA 2007, including the required schedules; and 
if the administration finds that some provision law is 
unworkable, it is their responsibility to come to the Committee 
and ask for a legislative fix.
    I am not going to get into the weeds on the implementation 
guidance decisions that the Corps is making. I know the Corps 
and the Assistant Secretary's Office have been working closely 
with the Chairman's oversight staff to see that the letter of 
the law is followed. I am sure the Chairman will press that 
point, as he has just done.
    I am more interested and concerned about the direction the 
administration is heading as it carries out some of the policy 
issues of WRDA 2007. I will mention just a couple.
    Section 2003 includes a generic credit provision that 
allows non-Federal partners to receive credit for in-kind work 
done on projects. It is both interesting and frustrating that 
an administration that takes great liberty with its 
interpretation of statutory language under the principles and 
guidelines provision chooses to interpret this credit provision 
very rigidly, making the provision completely unworkable.
    I am currently most concerned about the implementation of 
section 2031 of WRDA 2007. It directed the Secretary of the 
Army to revise the water resources planning principles and 
guidelines as they relate to the Corps of Engineers. The 
administration has ignored congressional direction and assigned 
the task of revising principles and guidelines to the Council 
on Environmental Quality, not to the Secretary of the Army.
    In addition, the administration has invited agencies not 
typically responsible for water project planning to actively 
participate in interpreting the statute.
    This Committee, the Congress, and the Corps of Engineers 
itself has worked hard for decades to better understand the 
environmental impacts of water resources development and to 
minimize and to mitigate for them. There is a balance of 
contributing to the national economic development consistent 
with protecting the environment.
    Section 2031 of WRDA 2007 established a national policy 
that water resources projects should encourage economic 
development and protect the environment by, number one, seeking 
to maximize sustainable economic development; seeking to avoid 
the unwise use of floodplains; and, thirdly, protecting and 
restoring the functions of the natural systems. But in December 
of 2009, the Council on Environmental Quality released its 
draft provision--draft revision, rather, to the first part of 
the P&G and clearly ignored the WRDA 2007 objectives. CEQ 
stated that the projects must protect and restore natural 
ecosystems while encouraging sustainable economic development.
    Clearly, the administration is headed towards a new P&G 
that has a bias in favor of environmental projects or a no-
action alternative and against economic projects. This approach 
is contrary to the objectives stated in section 2031 of WRDA 
2007. The project should maximize sustainable economic 
development.
    There are other aspects of the P&G revision that I find 
troubling, and perhaps the Chairman may want to have a hearing 
only on this provision and how it is being implemented.
    Through WRDA 2007 and other statutes, we in Congress have 
heaped a lot of extra planning process on the Corps, including 
added layers of peer review. These things cost time and money, 
but our hope is that the extra process results in better 
projects. I hope that that is true. But I will add that no 
other Federal agency has to go through so much scrutiny and 
process to bring its public works projects to the Nation.
    Mr. Boozman. [Continuing.] I think the most common 
complaint Members of Congress hear about the Corps of Engineers 
is not that their planning principles have been wrong but that 
they are so mired in process that it takes too long to get a 
decision out of them, and I think all of us here on the 
Transportation and Infrastructure Committee and in Congress 
could provide many, many real-life examples of that.
    I am afraid, Mr. Chairman, that the way this administration 
is interpreting the WRDA 2007 provision to revise the P&G 
together with the additional well-intentioned burdens we have 
put on the Corps, the future Corps of Engineers may simply be 
capable of delivering the water resources projects that the 
nation needs for economic development and environmental 
sustainability.
    With that, I yield back.
    Mr. Oberstar. I thank you for those comments and especially 
on the point of credit, in WRDA 2007 we wanted to make it 
easier for local interests to do work largely in the planning 
phase and the land acquisition and others, and have it count 
toward the non-Federal share. Instead, the result has been less 
help for communities and what we have seen in the past, prior 
to WRDA 2007, is one after another, the community comes to the 
Committee or to their individual Member of Congress for ad hoc 
help on making up that local share.
    We didn't want this to be done by earmarks and water 
appropriations bills, but rather on a policy basis. So we are 
going to further explore the point the gentleman has raised 
plus the others.
    Now the Chair of our Water Resources and Environment 
Subcommittee, Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
and thank you for holding this hearing. I commend and welcome 
your ongoing efforts to return to the legislation originated in 
this Committee to ensure that the law is being implemented as 
written and intended. I am and will continue to be a strong 
supporter of increased investments in our Nation's 
infrastructure.
    As I said on the House floor during the debate on the 
conference Committee report for the 2007 Water Resources 
Development Act, we do right by this country when we invest in 
its infrastructure, including our critical water 
infrastructure. It took us many years to reach agreement, pass 
and overcome a veto to produce the 2007 act, and I remain proud 
that the agreements were reached.
    We are here today to review the Corps' implementation of 
what came to be known in the years preceding 2007 as the Corps 
reform. This included strengthening the effectiveness of the 
Corps' mitigation program, establishing requirements for 
independent review of the proposed projects that were large or 
controversial and revisiting, revising the planning principles 
and guidelines that the Corps uses to develop its project 
recommendations. I was recently disappointed to learn that 
based on research conducted by our Committee staff, many of the 
reforms that this Committee and ultimately Congress approved 
have not been implemented.
    I hope this hearing will shed light on why many of the 
mandates in the bill still await action 28 months later and 
after the water resources bill's enactment.
    The Corps was required to implement revised principles and 
guidelines within 1 year of enactment. We still have not seen 
them.
    To encourage consistency in recordkeeping, we mandated that 
the Corps assign a unique tracking number for each water 
resource project and, again, our research shows that this has 
not yet been implemented.
    Congress also included language to help improve and 
strengthen the Corps' mitigation program. I was deeply 
disappointed to learn that the Corps ignored congressional 
direction to implement mitigation in advance of project 
construction. The Corps' guidelines document on this issue 
makes no mention of undertaking the mitigation before 
construction on a project.
    There are other examples that I could cite, but I am eager 
to hear what our witnesses have to say in response to these 
lapses. I also want to hear from them on what this Committee 
can do to help them achieve the problematic changes of the 
Water Resources Development Act of 2007.
    Again, our Nation's infrastructure is in critical need. I 
stand ready to do all I can to get us back on the right track 
and look forward to continuing to work with this Committee and 
the Corps to the end.
    I thank you, Mr. Chairman, and I yield back.
    Mr. Oberstar. Again, thank you very much for those remarks 
and for your splendid leadership on the water resources bill 
during the years we were in the minority and during the 110th 
Congress. You did a splendid job, and thank you for leading the 
charge on the floor while I was having my neck replaced.
    Mr. Cao.
    Mr. Cao. Thank you very much, Mr. Chairman. Mr. Chairman, I 
just want to reiterate your concern with respect to the Army 
Corps' efficiency and credibility. I believe that this is an 
extremely important hearing, especially for the people of 
Louisiana who live along the Gulf Coast region.
    I just want to point the Army Corps to a number of projects 
that we have in the district that the Army Corps has virtually 
missed all of the deadlines. Specifically one is the Violet 
Diversion. Section 3083 required the Corps to design and 
construct the Violet Diversion and the law requires the Corps 
to complete design on the project by November of 2009. This has 
been rolled--based on my understanding--into a larger MRTO 
restoration under section 7013 but has not been designed.
    The second project is the IHNC lock replacement. Section 
5083 required the Corps to submit supplemental EIS for project 
by July 1, 2008. The EIS was finally submitted but that 
deadline was missed.
    The comprehensive study, section 7002, required the Corps 
to develop a comprehensive plan for coastal Louisiana by 
November 2008. Based on my understanding, this comprehensive 
study was never started. The U.S. Army Corps claims that funds 
were not specifically appropriated for initiating. However, a 
specific appropriation was not necessary.
    The fourth project, or at least a number of projects, 
concerns four LCA additional projects. Section 7006 required 
four feasibility studies be submitted by December 31, 2009, and 
these studies were never submitted.
    Section 7006(e)(3) required six feasibility studies to be 
submitted by December 31 of 2008. These studies were never 
completed, even though, based on my understanding, the district 
personnel are moving forward and the report was supposed to be, 
is supposed to be due by December 31 of 2010.
    MRGO restoration plan. Section 7013 required a restoration 
plan for MRGO by 2008. Plans and/or reports were scheduled to 
be completed by 2012.
    So, again, Mr. Chairman, this points to your concern 
directly questioning the efficiency and credibility of the Army 
Corps. They have a number of major projects in my district and 
the deadlines are either missed or some of the projects were--
or at least some of the requirements were never submitted.
    I am also concerned about the Corps' excessive delays in 
deepening and maintaining a portion of the Mississippi channel 
adjacent to the Napoleon Avenue Container Terminal at the Port 
of New Orleans. A small navigation project to deepen and 
maintain the berthing area near that terminal was specifically 
authorized by WRDA 2007. That was 2 years ago and the Corps has 
not even begun a routine study to examine the significant 
transportation and related economic benefits that the 
navigation project will produce that are vital to the 
competitiveness of the Port of New Orleans.
    Mr. Chairman, the waterways are an integral part of 
Louisiana's way of life as well as an indispensable component 
of our economy. If we don't keep the Army Corps up to task with 
a number of these projects, it will affect our ability to 
recover as well as it will affect our ability to provide our 
people with jobs.
    I thank you for holding this hearing, and I hope that we 
can both continue to work together to address the needs of the 
people along the Gulf Coast, especially for the people of New 
Orleans, of which I believe your wife is a native of the city.
    So, thank you, and I yield back.
    Mr. Oberstar. Yes. Thank you, Mr. Cao. Yes, indeed, we have 
visited those sites that you referenced, several times, in 
fact, over the course of the years. I am glad you raised those 
issues.
    Mr. Bishop.
    Mr. Bishop. Mr. Chairman, I don't have a formal opening 
statement. I just want to thank you for holding this hearing. 
Given the nature of my district, the efficient and timely 
performance of the Corps is absolutely vital to both the 
environment of my district and to the economic stability of my 
district, and so these are important issues that need to be 
raised.
    I thank you for having this hearing. I yield back.
    Mr. Oberstar. Mr. Kagen.
    Mr. Kagen. Thank you for holding these hearings and thank 
you to the Army Corps for stepping up and improving your 
function in a more efficient way. I would like to align myself 
with the remarks from the gentleman from New Orleans. We all 
understand here on this Committee that nearly a third of our 
energy comes through that Port of New Orleans, and we want to 
make sure that not only they recover but that our Nation 
recovers as well in this economic downturn. I look forward to 
your comments.
    I yield back.
    Mr. Oberstar. Thank you. Now, whether Members have 
comments, we will begin with our first panel, the Honorable Jo-
Ellen Darcy, Assistant Secretary of the Army, accompanied by 
the Commanding General of the U.S. Army Corps of Engineers, 
Lieutenant General Van Antwerp. You have done a superb job at 
the Corps, subject to these questions that we are going to be 
raising here. Thank you for your great service, long-time 
service of the Corps.
    I would just like to make an observation. The Panama Canal, 
the second system, is nearing completion. We open in 2014 on 
the 100th year anniversary of the opening of the first Panama 
Canal. But the reason that the second system is being built is 
that the first one wasn't done according to the recommendation 
of the Corps of Engineers. When President Teddy Roosevelt, as 
Senator Hayakawa said, stole the Panama fair and square, he 
directed the Corps of Engineers to undertake an engineering 
scheme for building the Panama Canal where the French had 
failed. The assignment was given to a major, an engineering 
major, a civil engineer, a major in the Corps of Engineers, who 
spent a year traveling the isthmus, documenting, writing his 
report, 40 pages, which I have seen, and it is a fascinating 
report.
    It went up to the Chief of Engineers and all the way up to 
President Roosevelt who looked at it and said, ``oh, what's 
this going to cost?'' When told, he said, ``Can we make it 
smaller? Congress will never approve that amount of money.''
    That report recommended locks of 150-foot beam and 1,500-
foot length. Had that original plan been built, they wouldn't 
be doing a second one now.
    So, in many ways, there are other stories about the Corps 
being the forerunner of the National Park Service, taking over 
Yellowstone, reestablishing it, Yosemite, reestablishing it. I 
often remind people that when they see our Park Service 
rangers, that uniform is the uniform of the Corps of Engineers 
in the 1880s.
    You have done enormously good work, but there are some 
things that we have to upgrade and uptick here.
    Ms. Darcy, proceed.

 TESTIMONY OF THE HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF 
THE ARMY FOR CIVIL WORKS, DEPARTMENT OF THE ARMY; AND LT. GEN. 
  ROBERT L. VAN ANTWERP, COMMANDING GENERAL OF THE U.S. ARMY 
           CORPS OF ENGINEERS, DEPARTMENT OF THE ARMY

    Ms. Darcy. Thank you, Mr. Chairman, and distinguished 
Members of the Committee. I am honored to testify before you 
today on the implementation the Water Resources Development Act 
of 2007.
    As you know, I have a deep personal interest and a keen 
appreciation of the importance of the Water Resources 
Development Act for the Army Civil Works Program. I will focus 
my oral statement on the implementation of the national policy 
provisions contained in Title II and would ask that my full 
statement be included in the record.
    Mr. Oberstar. Without objection, so ordered.
    Ms. Darcy. I would especially like to focus on the four 
specific provisions in Title II, Section 2031, which is the 
Principles and Guidelines; Section 2034, Independent Peer 
Review; Section 2035, Safety Assurance Review; and Section 
2036, which is Mitigation for Fish and Wildlife and Wetlands 
losses.
    Section 2031 of the Water Resources Development Act 
directed the Secretary of the Army to revise the Economic and 
Environmental Principles and Guidelines for Water and Related 
Land Resources Implementation Studies, which are referred to as 
the P&G. The Council on Environmental Quality took the lead in 
this effort to apply the revised P&G to all Federal agencies 
involved in water resources project development, a process that 
is expected to last at least another year.
    On December 3 of 2009, the Council on Environmental Quality 
submitted to the National Academy of Sciences for peer review 
new proposed revisions to the Principles, as well as to Chapter 
1 of the Guidelines of the 1983 P&G, which are called the 
Proposed National Objectives, Principles and Standards for 
Water and Land Related Resources Implementation Studies.
    A Water Science Technology Board review will take about 11 
months to complete. This draft was concurrently made available 
for public review for 90 days and CEQ has extended that for an 
additional 30 days. CEQ has also formed an interagency working 
group in January of this year to develop interagency procedures 
across the Federal agencies, and we are participating in this 
group.
    The Administration plans to issue the Principles and 
Standards in final form in the spring of 2011 after 
consideration and resolution of comments received from the 
general public and from the National Academy.
    The Corps implemented a comprehensive peer review process 
in May of 2005 with the publication of an Engineering Circular 
for peer review of decision documents, which established a 
rigorous peer-review process adopting most of the 
recommendations of the National Resource Council study under 
section 216 of WRDA 2000 and implementing the 2004 Office of 
Management and Budget Information Quality Bulletin for peer 
review.
    Provisions in the Water Resource Development Act of 2007 
reinforce and further define for the Corps this review process. 
We recently published an Engineering Circular which provides a 
more comprehensive and a more robust review policy for civil 
works planning, design, and construction. The guidance 
contained in this Engineering Circular lays out a standard 
seamless process for review of all civil works projects from 
initial planning through design, construction, operation and 
maintenance, repair, replacement, and rehabilitation.
    Mitigation planning is an integral part of the Corps' 
overall planning process. The Corps issued supplemental 
guidance for mitigation plans as well as for monitoring 
adaptive management in May of 2005.
    With the passage of WRDA 2007 and Section 2036(a), we have 
strengthened the requirements for developing and reporting 
monitoring and adaptive management activities.
    Monitoring of project mitigation features will continue 
until the Corps demonstrates that identified ecological success 
criteria have been met. Corps Division Commanders are 
establishing an annual consultation process with States and 
agencies, and we will include these consultation reports in the 
annual status report on mitigation required by Section 2036(b).
    In addition, the Corps is establishing a database to track 
the mitigation performance.
    I would be remiss if I did not mention the work we have 
accomplished under Title IX of WRDA 2007, the National Levee 
Safety Program. Title IX, specifically Section 9003, 
established the National Committee on Levee Safety and directed 
the Committee to develop recommendations for a national safety 
program. The National Committee on Levee Safety completed a 
draft report in January of 2009 and put forward 20 
recommendations for creating a national levee safety program.
    Although the Corps of Engineers chairs this Committee, the 
Committee's recommendations do not, and were not intended to, 
represent those of the administration.
    The final draft report was provided to Congress by the Army 
in May of 2009.
    Section 9004 requires that the Secretary establish and 
maintain a database with an inventory on the Nation's levees. 
The Corps will complete data collection and inventory of the 
approximately 2,000 levee systems, which comprise about 14,000 
miles of levees, within current authorities and funds during 
fiscal year 2010.
    Activities planned in fiscal year 2011 include the 
expansion of the National Levee Database to other Federal 
agencies and to incorporate non-Federal levee data on a 
nationwide basis. We are going to work with stakeholders to 
facilitate their use of the database for local levee safety 
programs, and we are going to develop a levee screening and 
classification process to rank and prioritize levees based upon 
risk.
    With the allocation of $90 million from the American 
Recovery and Reinvestment Act for periodic inspections, the 
Corps will complete inspections for those levees which the 
Corps operates and maintains and those levees for which the 
Corps performed the initial design and construction and for 
those levees which have been incorporated by law into the 
Corps' program as a federally authorized levee system.
    Mr. Chairman, implementation of this very important 
legislation has been and remains a priority for the Corps and 
the Army. This concludes my testimony, and I would be happy to 
answer any questions that you have.
    Mr. Oberstar. I understand by prior agreement you speak for 
the Corps and General Van Antwerp does not have a separate 
statement but is available to answer questions.
    Ms. Darcy. Yes.
    Mr. Oberstar. Alright. The first issue that strikes me, 
through all of our review and the statement that I made at the 
opening, is the agency interaction with the National Academy of 
Sciences, Office of Management and Budget, Council on 
Environmental Quality, and other entities that are engaged in 
this. First of all, with the National Academy of Sciences, we 
thought this was going to be very straightforward, quick 
acting, but it seems not to have been. How is this process 
working? Take us through step by step what happens when you 
work with the Academy.
    Ms. Darcy. Congressman, when the initial draft of the 
revision of the Principles and Standards was done by the Corps 
of Engineers, it was put out for public comment. Then the 
Council on Environmental Quality decided that the Principles 
and Guidelines, because they originally applied to other 
agencies, that they should be developed with other agencies as 
well.
    So after that, the interagency working group, including the 
Corps of Engineers and the other agencies, worked on a draft of 
the Principles and Standards part of the Guidelines. We wanted 
to have this independently peer reviewed so we submitted it to 
the National Academy of Sciences on December 3. They estimated 
their review of this would take about 11 months.
    We are going to have our first meeting with the Academy in 
March, and our public comment period on the Principles and 
Guidelines has been extended to mid-April 7. Within this 
timeframe, the Academy and the Corps will be hearing from the 
public, on their comments and feedback on how these Principles 
and Standards would actually work. The next step is the 
interagency development of the actual guidelines, which will 
begin while the Academy is reviewing the Principles and 
Standards.
    Mr. Oberstar. What comes back to our Committee staff and 
back to me are indications that the Academy operates in a very 
slow, deliberative, almost academic fashion on a time frame 
that is more linked to eternity than to the day-to-day urgency 
needs of the Corps.
    I suppose if you respond to that you will alienate somebody 
over at the NAS, but I need to get a sense. General Antwerp, 
you are out in the field, you have got a mission to do for the 
Army. You have got to build a causeway, a bridge or a 
passageway. You haven't got time to diddle around with it for 
months and months.
    What was your experience working with the Academy?
    General Van Antwerp. Well, first of all, I would like to 
say, Mr. Chairman, that part of our external review process is 
to get somebody that is totally independent, which the National 
Academy of Sciences is. Then they have a means of touching 
other groups. Our other element that we used for these are 
501(c)3 nonprofit elements, because we want this to be totally 
external.
    My experience with the National Academy of Sciences is that 
they start as we do and lay down the milestone schedule for 
whatever project or review they are going to do. This is a very 
complicated review because of all of the elements, plus it 
applies really to four agencies besides the Corps, the Bureau 
of Reclamation, the Natural Resources Conservation Service and 
the Tennessee Valley Authority.
    Mr. Oberstar. So you are saying that the substance and the 
procedure itself, review, is complex in and of itself.
    General Van Antwerp. Right.
    Mr. Oberstar. Rather than the National Academy making it 
complex?
    General Van Antwerp. I think that is exactly right. One of 
the guidelines behind external review is that it should be 
scalable, and it is scalable based on the complexity of the 
issue and also the importance of it. Both of those, you have to 
get those right. It is very complex plus the importance of it 
is hugely significant here, because it hasn't been updated 
since 1983.
    Mr. Oberstar. The National Academy of Sciences, both we and 
our counterparts in the Senate thought this is a very good 
idea, bringing in an external, objective group, with an 
academic approach to issues, it doesn't have a stake in the 
outcome, that is, a financial stake in the outcome, but seeking 
good public policy.
    But then it appears that this has become a very cumbersome 
process. Maybe it is just because we appear in the House any 
way, operate on 2-year terms, and we would like to see, we 
would like to see results sooner rather than later, sometime in 
the next lifetime. We want them sort of in our lifetime, maybe 
even in our tenure in the House.
    Then you have OMB and CEQ. They also get their fingers in 
the pie here. Each has a different role, and I have a sense 
that the office spends more time on the M of the issues than on 
the B of the issues, more on management.
    Just parenthetically, it is not for you to answer or 
respond to, but Congress never should have created an office of 
management over and above the existing agencies. That was done 
in 1974, and I know the historical precedence for it, 1973 
actually, but it has caused us in the House and the Senate 
endless headaches and you and the agencies. They overstep their 
bounds. They really should be looking only at the budget 
implications and give you their view and their impressions.
    Then CEQ has a different role. That is a more substantive 
role. That is one that looks at the environmental consequences 
of what you are proposing to do.
    So tell me about your interaction with these two agencies 
and how long a turnaround time do you get with them?
    Ms. Darcy. We have been working with CEQ on a number of 
issues in addition to the development of the Principles and 
Guidelines and other ecosystem restoration efforts that are 
being led by the Council on Environmental Quality. We, as an 
agency, are in constant communication with the Council, as well 
as OMB, not only in creating our budgets, but also in looking 
the way forward on some of the priorities within the budget, 
including ecosystem restoration.
    What my experience has been so far--and I have been in this 
job 7 months - we have been collaborating with CEQ more than 
this agency ever has in the past. Not only because of the 
priorities of this Administration, but because I think the 
recognition of what the role the Corps of Engineers plays in 
every water resources development decision that is made in this 
country.
    Mr. Oberstar. Well, that is a very good, very cautious, 
careful answer, and you have not offended anybody over there at 
OMB, and I understand that.
    When we set forth in this legislation, mandatory 
independent reviews for larger projects that may have some 
elements of controversy surrounding them, we wanted those 
reviews done, but we were also concerned about timing. We 
didn't want that outside review to delay or make an already 
deliberative process cumbersome. But it seems that the reviews 
undertaken so far are coming at the end of the process, raising 
issues that should have been addressed earlier, and thereby 
creating a delay that we didn't want to happen, Boston Harbor 
deepening, an example of it.
    What have you learned in these 2 years now, and what steps 
are you taking? You have got a fresh set of eyes since WRDA 
2007 was enacted, and what have you learned from this process? 
What steps are you taking to move it along more expeditiously?
    Ms. Darcy. Congressman, I think what we have learned is to 
start the review process earlier.
    Mr. Oberstar. Yes, that is what we wanted you to do.
    Ms. Darcy. And also have the process be throughout the life 
cycle of the project, not just at the beginning or not once an 
alternative is selected. Unfortunately, as you know this was 
not done in the case of Boston Harbor; the review process came 
late in the process.
    I think an example we can point to as a success of the 
independent external peer review is the Mississippi Coastal 
project; we have just sent that chief's report to the Congress.
    We had an external independent peer review on this project 
that lasted about 3-1/2 months. It did not delay the project, 
it did not delay the study, and it came in at about $212,000 
for the external independent peer review, and I think we have a 
better project because of it.
    I think the local sponsor would agree, too, sir.
    Mr. Oberstar. Alright. We will leave it there for the 
moment.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman. It is good to have 
you, Secretary Darcy, and I think we get to have you again 
tomorrow, so we are looking forward to that, and I say that 
with, you know, in the right spirit, very much. We appreciate 
your all's hard work.
    One of the national objectives proposed by CEQ, not 
Congress, is avoiding adverse impacts to natural ecosystems 
whenever possible. Since a no-action alternative is always 
possible, this could preclude the Corps of Engineers or any 
other Federal water resources agency from ever constructing a 
project with economic benefits.
    How does the Corps intend to carry out this proposal?
    Ms. Darcy. I think that what we are going to consider with 
the new P&G is a range of alternatives. I know that we will be 
looking at the other provisions in a more careful way, also in 
a more deliberative way. I don't think that the Principles and 
Guidelines as drafted and out for public comment would preclude 
us from going forward with what the best project alternative 
would be.
    Mr. Boozman. The 1983 principles and guidelines had a 
special emphasis that all effective alternatives for solving a 
set of water resources problems ought to get unbiased 
consideration evaluation in making a decision on what is 
recommended to Congress for authorization.
    Again, can you explain the administration's position on 
this fundamental idea of considering all the alternatives 
without bias and making a recommendation?
    I guess kind of the impasse we have is we appreciate the 
Council on Environmental Quality--and maybe we should get them 
to come over and testify since they are having so much 
influence, but I guess, you know, they are a body that is there 
to give, you know, give guidance, give advice. But the 
ultimate, the ultimate advice giver and the ultimate whatever 
is Congress, and what we are seeing is a difference in advice 
versus the intent of the law.
    And so, again, can you comment on----
    Ms. Darcy. On the role of CEQ, is that your question, sir?
    Mr. Boozman. Well, that, and then what I was alluding to on 
the alternatives, effective alternatives, you know, for 
involving water resources problems, getting unbiased 
consideration, evaluation, make the decision on what is 
recommended to Congress for authorization. So, yes, tell us 
what you see the role is and----
    Ms. Darcy. I think that the Principles and Guidelines that 
have been drafted and are out for public comment will be able 
to provide for those alternatives to be considered.
    What P&G revisions are intended to do is to be able to look 
at not only the net economic benefits but also the 
environmental benefits and to be able to look at both of those 
in all alternatives; in making the final decision for the 
project alternative selection both of those would be weighed.
    I don't think any alternative is going to be off the table. 
I think that looking at them both through the eyes of the total 
national economic benefit as well as the environmental benefit 
is the way that we are hoping that they will be looked at in 
the future.
    Mr. Boozman. I understand. I guess our concern is that it 
doesn't have that effect, that, you know, the language is 
different with the intent of what Congress was trying to do, 
you know, with WRDA.
    So with that, I yield back my time.
    Mr. Oberstar. We will have additional rounds. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman, and thank you very 
much for your testimony. I want to talk a little bit about the 
issue of cost share. I am very concerned about cost share, 
particularly in this economic environment. We have State and 
local governments with really no capacity or very limited 
capacity to contribute their share of Army Corps projects.
    My understanding of the intent of language in WRDA 2007 was 
that local government should be able to use other Federal 
dollars for their cost share and my further understanding is 
that that is not happening, that is not being allowed.
    So my question is what tools or authority does the Corps 
possess to assist communities with the local cost share?
    For example, is there not language, existing language, 
dating back pre-WRDA 2007 that gives the Secretary the right to 
waive local cost share?
    Ms. Darcy. Yes, there is.
    Mr. Bishop. So, I guess, more specifically, then my 
question is what are the set of circumstances that would need 
to be present for such a judgment to be made, and my further 
question is aren't they already present?
    Ms. Darcy. Congressman, I would have to say that I don't 
know the specifics of what the particular criteria would be in 
order to get that waiver, under which authority. But I would be 
happy to get back to you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 55276.031
    
    [GRAPHIC] [TIFF OMITTED] 55276.032
    
    [GRAPHIC] [TIFF OMITTED] 55276.033
    
    [GRAPHIC] [TIFF OMITTED] 55276.034
    
    [GRAPHIC] [TIFF OMITTED] 55276.035
    
    [GRAPHIC] [TIFF OMITTED] 55276.036
    
    [GRAPHIC] [TIFF OMITTED] 55276.037
    
    Mr. Bishop. I would appreciate that, because it is a 
particularly difficult issue right now. I know in my own State 
there are a lot of Army Corps projects that are ready to go 
that are not going for lack of a local cost share. And not only 
are the projects important to do, but these are projects that 
would put people to work.
    So I would be very grateful if you would give this your 
serious attention and let us know what we can do to move this 
forward.
    Ms. Darcy. I will.
    Mr. Bishop. The next question I wanted to go to was the 
issue of independent peer review and linking that, if I may, to 
the centers of expertise that the Corps maintains. My 
understanding is the Corps maintains some number of centers of 
expertise and that one of their roles was to provide some type 
of independent peer review of major Army Corps projects.
    So I have a couple of questions that flow from that. One, 
do you feel that this process is working, are the centers of 
expertise providing this kind of peer review? That is my first 
question.
    General Van Antwerp. Congressman, first of all, we do have 
six centers of expertise and four of six are functioning very 
well and have done a lot of what they were designed to do. A 
couple of them--and one is the navigation center, are still 
trying to get up and running but these six centers are to do 
exactly as you say.
    One of their functions is to help in the review process. We 
have two types of review. We have internal review, and they can 
organize that process and put together the group of experts. 
They can also help to organize the external review, when that 
would go to the nonprofit organization or whatever organization 
chosen to complete the review. That is part of their charter.
    The other part is to really help our districts, where they 
have insufficient expertise to bring the best technology and 
innovation to projects, to bring that expertise to these 
projects.
    Mr. Bishop. How are these centers currently funded?
    General Van Antwerp. They are really joint funded. They are 
funded partially by what we call general funds and then 
partially by the project funds of those projects to which they 
are lending their expertise.
    Mr. Bishop. Would the Corps benefit and certainly would the 
American people benefit if we had more of them, and would a 
model for them be to site them on college or university 
campuses that have expertise in coastal zone processes or 
whatever their particular expertise might be that would be 
related to or be relevant to Corps projects?
    General Van Antwerp. I think several questions are there. 
One, I think we have the number about right. Where they are 
located generally is where there have been projects like that 
or in a district that already has that expertise. We do use 
universities, and we do have money that we provide universities 
to help us, both in review and in study, which I think is an 
excellent idea. It gets the innovation, and it also puts us 
with academia in a little different light, and I think that is 
good.
    So by and large, I think we are located well, we have about 
the right number. But we need to go to great in this area.
    Mr. Bishop. Thank you both. I yield back, Mr. Chairman.
    Mr. Oberstar. Mr. Cao.
    Mr. Cao. Thank you, Mr. Chairman. Mr. Chairman, before I 
begin my questioning, I ask for unanimous consent to enter into 
the record a statement by my colleague from Louisiana, 
Congressman Steve Scalise.
    Mr. Oberstar. Without objection, the statement will be 
included in the record at the appropriate point.
    Mr. Cao. Thank you very much, Mr. Chairman.
    Secretary Darcy, General Van Antwerp, first of all, I want 
to thank you for everything that you have done. I am pretty 
sure that overseeing the Army Corps of Engineers is a quite 
demanding job, and I am very certain that you hear a lot of 
complaints on a day-to-day basis, and I am here to complain 
again and to make sure that my complaints are being heard.
    As you can tell from Hurricane Katrina, all of these 
projects that I just mentioned, not only do they mean economic 
development, but these projects basically entail the survival 
of the people of the region. Katrina devastated 80 percent of 
New Orleans, misplaced over a million people nationwide to 
various areas of the country. And 4-1/2 years after Katrina, we 
are only, hopefully, 60 percent, 65 percent back.
    This past weekend, I met with Director Spike Lee, who is 
doing a follow-up documentary to his first piece, When the 
Levees Broke, and he asked me a very direct question. He said 
you are the representative of this district. What are you doing 
to restore the coast and to protect the people of New Orleans?
    And one of my answers was, because I belong to the T&I 
Committee, I have oversight of the Army Corps of Engineers, and 
my task is to make sure that they keep up with their duties, to 
make sure that they complete their project on time.
    My question to you here is, what are you doing to ensure 
that the projects in my district are being completed on time 
and to ensure that the projects that are under the direction of 
Army Corps are being completed on time?
    General Van Antwerp. First of all, thank you for the 
question. I count it as constructive criticism, and I 
appreciate it.
    We have our eye on a target in New Orleans, and it is June 
2011. It is the beginning of hurricane season 2011. The 
Congress has been gracious and the Administration has been 
gracious. This is about $15 billion worth of work. I would love 
to bring it to you in the detail that we have; when the study 
must be completed, when the detailed design has to be done in 
order to start the project at the right time to finish and meet 
those deadlines.
    So we are very much conscious of the necessity of getting 
these projects done to meet that deadline of 2011.
    Mr. Cao. I am pretty sure you are familiar with the issue 
we have in connection with Option 1 and Option 2 and Option 
2(a) in connection with, I guess, the project.
    An issue that has been raised, and the issue questions the, 
I guess, the forthrightness, the honesty of the Army Corps with 
respect to the feasibility study of Option 1 versus Option 2 
and 2(a), seems to think that the cost study that the Army 
Corps put out in regards to Option 2 and 2(a) are way 
overblown.
    What is your answer to that?
    General Van Antwerp. First of all, Option 1 and 2 and 2(a) 
are-- a lot different in that 2 and 2a really are a pump to the 
river option that eliminates a lot of the local pumps. It is a 
much more elegant solution, but a pricey solution, and here is 
why.
    In order to really capture the cost, and the ability, if 
this is constructable or not, we are not sure because of the 
depth of the canals. You have all kinds of utilities and bank 
stabilization when you start to really increase the depth of 
those canals. So we have decided first of all thus far short of 
having any of that information, that we would accommodate 
options 2 and 2(a) by having a feature for the current pumps 
under Option 1 that would be adaptable to 2 and 2(a). So we 
don't burn that bridge, but that we do make it if ever 2 and 
2(a) were studied and were feasible and funded that that would 
not all be thrown away.
    But there is a part here that has been talked about and 
that is suspending any action now unless it is consistent with 
2 and 2(a). First of all, it is very hard to know what is and 
what isn't feasible until you have done a study. That is the 
first start. You do a detailed feasibility study, give you the 
risks, give you enough of the engineering to say it could be 
done.
    The other part is we have pumps right now that are 
temporary pumps that are on those canals, and by 2013 they are 
going to hit their design life. They were never intended to go 
the long distance. I am very concerned right now, heart to 
heart, about not doing something now, that we are going to 
count on the temporary pumps if you have a major event that 
won't be able to deliver without an incredible amount of 
maintenance.
    We are checking the maintenance curves right now on every 
single pump, and they are increasing as we speak as they age 
towards 2013. So we have got to do something.
    The others are a more longer term solution, to study it 
well. We think it would be about $15 million and 36 months to 
do an adequate feasibility study that would be actionable by 
the Congress and Administration to say if we wanted to do 2 and 
2(a).
    Mr. Oberstar. Would the gentleman yield?
    Mr. Cao. Yes, Mr. Chairman.
    Mr. Oberstar. If I may interrupt the General, 15 million to 
do the evaluation, analysis of the adequacy of the pumps and 
the replacement cost?
    General Van Antwerp. No, sir. This would be for a 
feasibility study to look at Options 2 and 2(a), which is 
really the pump to the river option, vice Option 1, which is 
currently funded and authorized to replace those temporary 
pumps with a permanent solution. The one nuance there--and 
maybe I wasn't clear--but if we would do Option 1, we would 
include some adaptability features that in case you came back 
later and wanted to do 2 and 2(a), part of those features are 
existent.
    Mr. Oberstar. Just a horseback estimate, if the gentleman 
would allow me to continue.
    Mr. Cao. Please.
    Mr. Oberstar. A horseback estimate, not hold you to the 
numbers, but what do you think the replacement cost would be 
for those pumps? And I ask the question, you know, just need a 
ballpark figure, but I think the gentleman would want to know, 
I would want to know, other Members would want to know, so that 
we can start laying the foundation for it. Those pumps have to 
be replaced or the city is simply going to be inundated, and we 
should be planning now for some rather substantial investment.
    General Van Antwerp. We actually are planning for that 
investment right now. That is under Option 1, and we are funded 
for that. So we have a plan to do that. The one thing we don't 
have yet for that part of the project is a project agreement 
with a local sponsor for that because we have had a debate over 
options 1, 2 and 2(a). The Corps' position is that we need to 
get that project agreement done and get to work and put those 
permanent pumps in.
    If Congress tells us to do a feasibility study for 2 and 
2(a), and it is funded, we would do that to the best of our 
ability and give the comparison. But those pumps are going to 
need to be replaced in 2013.
    Mr. Oberstar. In the range of hundreds of millions of 
dollars I am sure.
    General Van Antwerp. It is in the hundreds of millions but 
the funding is there. We are not coming back for a request for 
funds.
    Mr. Oberstar. Thank you, Mr. Cao.
    Mr. Cao. Thank you, Mr. Chairman. I would look again to 
question you tomorrow and I yield back my time. Thank you very 
much.
    Mr. Oberstar. Now, independent peer review reports, the 
ones that have been completed so far, it seems we have had 
difficulty getting access to them, initially Committee staff 
was denied access. The public has the right to see these 
reports, our staff has a right to see them. They are not 
available on the Internet, we can't get them in person. We have 
to come and knock on the door, bag in hand. What do we have to 
do to get this?
    General Van Antwerp. You have every right to have total 
access to those. There is a way to Google them, but when we 
went and made a lot of improvements to our website, we 
essentially took the easy Internet access down. The best way is 
to have that website that gets you there directly. But you can 
go through the policy review site and do it. I have the team 
working on this for you.
    You are on to something that has been a challenge. We are 
trying to improve our website system and give more access and 
visibility. And what actually happened was it shut the Internet 
access down unless you were really, really savvy at how to get 
there, and I am not.
    Mr. Oberstar. Well, I have newly become an Internet user 
after years of resisting. I am a paper and typewriter person.
    So I learned how to use this and I said well, let me try to 
get this. We can't get access to this. So I tried, and I can't 
get in there. I use Google and all these things, so you tell us 
how, and make it open and transparent, whether we have a 
headquarters web page or something, somehow we haveto----
    General Van Antwerp. We are going to link it, put a big 
spot on the headquarters web page, just come on to the Corps of 
Engineers homepage and it will tell you how to get there.
    Mr. Oberstar. Good.
    Now, early drafts of revisions to the planning principles 
and guidelines that we saw, that staff shared with me, required 
the process to consider alternatives likely to have a high 
benefit-to-cost ratio. I said, where is this coming from?
    It turns out that there was a document from OMB and to the 
Assistant Secretary of the Army and to the Corps that directed 
the Corps to evaluate only those projects that would have a 1.5 
to 1 benefit-cost ratio.
    My question was how--I asked Ken Kopocis, our Counsel, and 
Ryan Seiger, Counsel to the Water Resources Subcommittee, how 
do you determine that a project has a particular benefit-to-
cost ratio if you don't do the study first. It is like Abraham 
Lincoln objecting to the proposal of the President for a toll 
on waterways. And he said, ``How can you impose a toll on a 
waterway unless you build the project first so that you have 
product in the waterway for a while so that it can generate the 
money for the toll?''
    This is the same thing, this is 160 years later. There was 
another document that I saw, that OMB proposed. This is OMB, 
that direct the Corps to support only, recommend only those 
projects that have a benefit-cost ratio of 2.5 to 1. That is a 
huge standard. It is a high requirement. Alright, tell us.
    Ms. Darcy. That is a very aggressive benefit-to-cost ratio, 
2.5 to 1.
    Mr. Oberstar. That is very kind, you are being very 
judicious.
    Ms. Darcy. That is something that we have been looking at 
trying to find those projects for setting priorities in a 
budget.
    Mr. Oberstar. Do you have an example of one that meets 
that? Can you give me an example, 2.5 to 1?
    Ms. Darcy. All of the projects in the President's budget, 
sir.
    Mr. Oberstar. They do. We probably don't need to build 
them. If they are that good, someone else can build them.
    No, seriously, this is unreasonable to set a goal before 
you undertake the review of the project, which review is going 
to lead you to that goal of determining benefit-cost ratios. 
Give it a try, General?
    General Van Antwerp. I believe what Ms. Darcy is saying is 
that the projects that were 2.5 to 1 or greater are what is in 
the President's budget, but that number floats dependent on the 
list in priority. As you take the benefit-cost ratio and rack 
and stack the projects and then you look at what the 
affordability is, that is how it is prioritized. One year, it 
could be 3 to 1, or it could go to 2 to 1. In the 2011 budget, 
for those construction projects, we know how much they cost, we 
know the benefit-cost ratio. When we drew the line, it came to 
that.
    Now, there is a couple of other categories. There are life 
safety projects where the the benefit-cost ratio does not 
govern. It is the life, health and safety, and an example of 
that would be one of our dams that needs critical rehabbing.
    But the projects that were not life, health and safety or 
ecosystem restoration, they competed based on their benefit-
cost ratio. Those ratios were known from a feasibility study 
and a chief's report.
    Mr. Oberstar. I think my recollection of the Tennessee 
Tombigbee was just barely 1 to 1, maybe below that. We had to 
push and shove to get it over point 1. Lock and Dam 26 was 
about 1.2 at the beginning. It turned out to be one of the best 
projects we have ever done on the Mississippi River. We need 
five more of them. And I wonder, I just wonder what B-C ratio 
you would assign to any one of those other five before you 
could even begin to work on it.
    General Van Antwerp. We do a preliminary study. And then if 
we think we have a 1 to 1 benefit-cost ratio or better, then we 
could go to feasibility.
    Mr. Oberstar. You make a horseback estimate----
    General Van Antwerp. Right. You make that estimate, and 
then you go to feasibility, where you refine it. Then it comes 
out 2 to 1, 4 to 1, 2.5 to 1, whatever. And then that is where 
you now have a tool, that says, I can prioritize these. But a 
project that has a 1 to 1 cost-benefit ratio says it could be 
worth doing. Now you get into the next question, can we afford 
to do all of those that were 1 to 1, and the answer to that is 
no.
    Mr. Oberstar. That is a different question. That is a 
question Congress needs to address, whether we can--or as in 
the case of the Panama Canal, President Roosevelt said, ``I 
don't think Congress will ever approve that kind of money.'' 
But he is not the first one. President Franklin Roosevelt, when 
presented with the cost of building the atomic bomb, said, 
``can't we build a little one? That is a lot of money, we have 
a war going on.'' So they made Little Boy. Yeah. It was big 
enough.
    Alright. In the planning process, where in order of 
significance does the B-C ratio come?
    General Van Antwerp. I think it comes in in several places. 
The first one is where you do the initial cursory study, 100 
percent Federal, to determine if we think we have a potential 
project. It is answering that question. And the benefit-cost 
ratio, unless there is health or safety or other things, says 
this makes sense to go to the next level.
    The next level, the feasibility, has some cost-sharing 
aspects. So now you are also engaging the stakeholders, 
partners, local folks and saying, is this worth it for you to 
do? We think that there is a benefit-cost ratio that applies 
here.
    And then you come through that process, eventually ending 
up with a chief's report, and it will have the benefit-cost 
ratio nailed down with all of the documentation of what are the 
benefits and what are the costs.
    One of the things, of course, the new Principles and 
Guidelines will do, will now incorporate nonmonetary things; 
they will incorporate the environment and some of those things 
that are a little harder to estimate benefits. But they are 
going to have to be figured into whether this makes a valid 
project or not.
    Mr. Oberstar. That is very illuminating, and that is 
important. But let me ask you a question also about the 
Mississippi River Lock and Dam 26, 1,200 feet, very efficient 
operation. But its efficiency and its contribution to river 
navigation is offset, mitigated, downrated by the other locks 
that aren't of that efficiency.
    If you are looking at a system, then don't you have to look 
at all of the elements of the system and say together they 
achieve this greater goal and will have this greater benefit-
to-cost ratio? Grain moves in international markets on as 
little as an eighth of a cent a bushel. If it takes 6 weeks 
round trip for barge tows to make that trip to New Orleans and 
back to the Upper Mississippi, we are not being efficient. We 
are not being competitive in the international marketplace. The 
port of Santos in Brazil has a 2-week sailing advantage over 
New Orleans because they are further out in the South Atlantic.
    General Van Antwerp. I think you are absolutely onto what 
we would call watershed planning, and you can't do a project in 
isolation. You have to look at effects of whether one lock 
could take X amount of traffic, but all the other ones on 
either side that actually govern, then that figures into the 
benefit-cost ratio of building that.
    Another example is the Great Lakes. They are so 
intertwined, all the ports and harbors in the Great Lakes 
really make up a system, and you have to work them all 
together, because if you can't get into one port, then you 
can't take materials to another. Those are the tough decisions. 
But I think the Principles and Guidelines also includes this 
larger look that you are speaking of.
    Mr. Oberstar. You just made the argument maybe somewhat 
better than I have done for the second lock at Sault Ste. 
Marie. When you think of the winter--Mr. Boozman doesn't have 
to deal with that issue. They don't have as much ice. And Mr. 
Cao doesn't have any ice at all except in the cocktail lounges 
in New Orleans. They don't want it. By the time it gets down to 
New Orleans, it is all melted. But if you think of a 105-foot 
beam lock and a 1,000-foot ore carrier, or an 1,100-foot, and a 
1,200-foot chamber, and in January, the lock chamber has 4 or 5 
inches of ice on either side, and the vessel has 3 or 4 or 5 
inches of ice on either side, and they come through--have you 
been up there when that has happened, grinding and squeaking 
and creeking, and you have just got inches? You need a second 
lock.
    We are going to be producing steel in the iron range, in 
the iron ore mining country in my district. The SR Steel 
Company, financed by Indian interests from India, not Native 
American interests, is going to be producing steel slabs. In 2 
years or so, the slabs will be rolling off the production line. 
We have another plant right at Silver Bay, and inland from 
Silver Bay Mesabi, Nugget is producing 98 percent iron product; 
not taconite, which is 64, 65 percent iron, but a pure iron 
like a feed for a blast furnace, for steel--for a blast 
furnace, for steel, electric arc furnaces, for minimills, for 
foundries. That is also going to be--they are going to need 
dependability and continuity of intralake shipment. There is an 
increasing demand for Powder River Basin coal. Those coal 
trains come in 2-mile lengths down to the Port of Duluth-
Superior. They have got to be able to move in the wintertime. 
So I think we have made--I have made my point.
    Mr. Cao. Mr. Chairman, can you yield?
    Mr. Oberstar. Mr. Cao.
    Mr. Cao. Thank you very much, Mr. Chairman.
    Mr. Chairman, I have in the room to your right is a group 
of students from New Orleans. They are from Cabrini High 
School. And all of the students returned to New Orleans after 
Katrina, so they fully understand the importance of the issue 
that we are discussing, the levees, the locks, what do we do, 
whatever we have to do in order to prevent the city from 
flooding again. So I just want to introduce to you the students 
from Cabrini High School.
    Mr. Oberstar. Let me, on behalf of the Committee, welcome 
the students from Cabrini High School.
    Mr. Cao. Yes, sir.
    Mr. Oberstar. Welcome. I am familiar with Cabrini. My wife 
is from New Orleans, grew up there. She still has family living 
there, and we make frequent trips to New Orleans. It is good to 
have student groups see how the work of Congress is conducted. 
And your Representative, Mr. Cao, is doing a splendid job of 
advocating for the city.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    I guess I would like to follow up since the Chairman 
brought it up, the cost-share ratios and things, and hopefully 
we will be able to talk about this more tomorrow as we talk 
about the budget.
    Where would a situation fall where if you had a project 
that you spent $80 million on, it lacked $30 million of 
completion? The cost-benefit is $1.50. So if you go ahead and 
complete it, then you are going to have revenue coming in. It 
costs $20 million to pull the plug, so you have spent about 
$100 million versus 110-. How would you do that? I mean, in a 
sense why would you not complete a project like that? Why would 
you change the rules of the game in the midstream? And that is 
essentially what we have being proposed today.
    I guess when we see things like that, it really--as the 
Chairman mentioned, there has to be some common sense with 
these things, and it really does--it makes us lose confidence. 
It makes us really look harder at the rest of it to wonder if 
those kind of projects can go on, kind of what the rationale is 
behind it. So where would that fall? General?
    General Van Antwerp. May I defer?
    Ms. Darcy. Is your question regarding----
    Mr. Boozman. I just want to--either one. I really would 
like an answer to the question. How would you not continue that 
project? What is the rationale behind that one? Because if you 
figure the cost-ratio now after you get all of this stuff 
invested in it, and it is way up there, it is over the 250 mark 
at this point to go forward as compared to discontinue it, does 
that make sense? Because you have so much invested in it.
    Ms. Darcy. In making priorities for the budget, we need to 
not only look at the benefit-to-cost ratio, but also the 
project purpose. And what it is we are actually going to fund 
in terms of project purposes, and whether those are in the 
priorities for the year's budget going forward.
    Mr. Boozman. So a hydroelectric green energy is not--does 
that come from the Council of Environmental Quality? Does that 
come from you?
    Ms. Darcy. It comes from the Administration, sir.
    Mr. Boozman. I guess, again, that makes no sense to not 
fund and then ultimately have the thing paid for. Is there a 
rational answer, General? I mean, do you agree with that?
    General Van Antwerp. What you have to do is take the cost 
to complete. Obviously the cost invested, the benefit-cost 
ratio, but as it came out in the President's budget, where it 
fell in the priorities was to not continue.
    Mr. Boozman. So cost to complete is $20 million. You have 
spent $80 million on it. I am sorry. The cost to complete is 
$30 million. You have spent 80 million. And 20 million to stop 
the project. I mean, you guys are sitting there arguing that, 
but that can't be argued in a rational way. I understand you 
have got to do it, but, again, that makes no sense at all.
    And like I say, we can talk about it tomorrow, but those 
are the kind of things, Chairman, that we are running into that 
we really need to get some answer to, and it is a problem.
    So I yield back.
    Mr. Oberstar. The gentleman makes a very important point. 
To the layman's mind, it is very hard to justify a termination 
cost that is almost as much as it takes----
    Mr. Boozman. When you have got a hydroelectric, unless we 
are down on hydroelectricity now, and we don't know about it--
the President in his State of the Union Address was very much, 
let us do nuclear, let us do these things. This is a clean--it 
is a situation where the turbines are down, way down in the 
water, so it runs all the time. It is a great project for so 
many things. It is clean. It is a very efficient use of 
whatever. But not only do we waste the money, if we go forward 
with the cost-benefit, we will actually get the thing paid for 
by the utilities over a period of time. So----
    Mr. Oberstar. That raises the issue of independent review 
and the mitigation, or the issues of independent review and 
mitigation.
    We have a few more minutes remaining before closing of this 
vote. We are going to--the next panel is going to tell us, 
judging by the testimony I have read, that independent peer 
review is not fully transparent to the public. They will say 
that interested parties don't even know that it is in the 
works. Do you agree? If so, what suggestions do you have for 
making the peer-review process more publicly available?
    Ms. Darcy. Mr. Chairman, I think that it is our goal to 
have the independent peer-review process much more transparent. 
In experience so far, we thought we have done that, but, as the 
General mentioned, we have had access problems on the Internet. 
But I think we would be open to try to work more openly with 
the independent peer-review process because I think that was 
the intent of having the process in the first place.
    Mr. Oberstar. It is a very, very important point in the 
discussions between our Committee and the Senate Committee, not 
just in the summer 2007 conference that we had, which, by the 
way, was about 45 minutes on a 7-year bill, but it was the 
subject of frequent discussions over that period of 7 years and 
one of the issues that continually held up further action on 
WRDA, Water Resources Development Act. So we need to take 
action to let interested parties know the peer-review process 
is under way, or it is coming, and inform the panels that they 
have the responsibility to seek public input.
    General?
    General Van Antwerp. I think the independent peer reviews 
do seek public input, but there is another piece at the end 
after they make their recommendations--that is, what we do with 
those recommendations will become public as well. So we will 
say, yes, we took that, it was important. We put that in, we 
are considering this, we have done the cost-benefit of doing 
this, but I think that is the whole life cycle of this.
    The one in particular about even the Principles and 
Guidelines, when they went to the National Academy of Sciences, 
the Principles and Standards, also went out for public review. 
What happens after the review of the National Academy of 
Sciences and after the public review, all should be made 
public. That is our opinion.
    Mr. Oberstar. And regardless of what the judgment is from 
the public about the substance of the review, making it public 
is the critical point. And we get more flack for process than 
you do for the substance of it.
    We are going to recess for these three votes. When we come 
back, I want to conclude with mitigation and cumulative effects 
measures. I want to have a discussion about floodplain 
management and revision of principles and guidelines. Those are 
the three issues remaining.
    [Recess.]
    Mr. Oberstar. The Committee will resume this hearing and 
conclude on the three items that I referenced before we left to 
vote on the House floor.
    So we strengthen mitigation requirements in WRDA 2007. And 
I have already earlier described the effort that Mr. Quie, 
then-Congressman Al Quie, later our Governor of Minnesota, and 
I crafted on mitigation being done concurrently with the 
construction. The guidance issued to field offices allows them 
to rachet back on mitigation by setting up some sort of a 
determination or a category--I am not quite clear how it is 
expressed when situations where adverse impacts are deemed not 
significant, requiring that mitigation be justified 
incrementally. That approach, ignoring--making a determination 
on an impact that is negligible, that it is not significant or 
can be done incrementally is contrary to the spirit and, I 
would say, requirements of section 906. So do you have a 
compendium of definitions of these categories of impacts, 
adverse, significant, negligible? When do you make that 
determination? How do you come to that determination?
    Ms. Darcy. Mr. Chairman, I expect that we have a 
compendium, but I cannot right now list off for you what that 
is. I would be happy to look into it and be able to provide 
that to you. Is your question how do we make the determination 
about which kind of mitigation is necessary?
    Mr. Oberstar. Yes. The criticism is, we have seen over the 
years prior to WRDA 2007 that the Corps uses these sort of 
escape clauses and ignores effects that, in the judgment of 
some observers, are significant and, by the Corps' 
determination, are negligible. So we need an understanding of 
and a transparent process of coming to those determinations.
    General Van Antwerp. We have a number of processes, Mr. 
Chairman, but I think we will definitely look into this and get 
the criteria back to you. But there is a lot of other agencies 
that have real high stakes in this, the Fish and Wildlife 
Service, the EPA for example. We have, among the Federal 
agencies, a lot of different inputs that have significant 
impact on it. And if there is, I think they would let us know, 
too.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 55276.038
    
    Mr. Oberstar. And a further question: When do those other 
agencies come into this process? I raise the question because 
in the 2005 surface transportation bill, Mr. Young, then 
Chairman, asked me to convene a group, a working group, of all 
the various interests, environmental groups, the contractors, 
the builders, the unions and all the rest, and the Federal 
Highway Administration, to find a way to expedite projects.
    What I found in this process is we have sequential review. 
The Federal Highway Administration starts; and then the State 
DOT; and then you have the EPA; then the State public pollution 
control agency; and then you have the Council of Environmental 
Quality; and then you have the Forest Service, the Fish and 
Wildlife Service; and then you have the Park Service, and one 
project comes in and says, you forgot about us; and then at the 
tail end, there is the National Trust For Historic 
Preservation, and they say, we weren't included. Well, they 
were; they just didn't pay attention.
    So in the highway bill that we reported from the 
Subcommittee, it turned this vertical process on its side to 
get everybody in the room at the beginning. How long do you 
need, how long does this agency need for your permit, and let 
us squeeze that time frame down and do it in a more expeditious 
manner, not override it, not ignore these things, but do them 
concurrently rather than sequentially.
    Now, is that a part of this?
    General Van Antwerp. Mr. Chairman, that absolutely is a 
part of it; as we have refined our planning process, it is to 
do those things simultaneously and to get all the other 
agencies that have a stake in it involved very early. And for 
us that usually begins when we make a decision that a project 
is going to require an environmental impact statement for 
example. That process has to begin very early because that is 
the time driver. So if you can get that time down for that, you 
have decreased the overall time for the planning studies.
    Mr. Oberstar. You have all the legislative authority or 
administrative authority to do this, to command all of the 
various agencies to come together at the beginning of the 
process?
    General Van Antwerp. We have everything we need to do that. 
I think to bring them all together--and a lot of it is 
collaboration with them, but it is also what their mandate is 
and what they are to do. All of us are now working together to 
get a good jump-off. And actually it goes right into the 
initial scoping, that we are all getting together to determine 
what needs to be done.
    Mr. Oberstar. Do you from time to time have an experience, 
as I uncovered in the course of this process on the SAFETEA 
legislation, an agency, for example, Fish and Wildlife Service, 
we would love to do this, but we don't have the budget for it? 
We can't afford to send one of our staffers off for 3 months or 
6 months to do this work. So what I did was write into the 
surface transportation--we will pay out of the Highway Trust 
Fund that person to do this where you can't get off the hook. 
This has got to be done, we can't have things drag on for 
years. Now, it is not to rule out or to skirt the environmental 
issue, but deal with it in a reasonable timeframe. That is what 
people get exacerbated with.
    Okay. Next, floodplain management. We gave the Corps, in 
the 1986 Act, authority to enhance responsible floodplain 
management, and required a non-Federal interest to, quote, 
prepare a floodplain management plan designed to reduce the 
impacts of future flood events in the project area. The plan 
shall be implemented by the non-Federal interest not later than 
1 year after completion of construction of the project.
    Going back to Assistant Secretary Woodley, we found that 
implementation was hit or miss, spotty. Are you, in the course 
of the direction given in WRDA 2007, reviewing floodplain 
management? Do you have some interim thoughts for us on where 
you stand with this now?
    Ms. Darcy. Yes, Mr. Chairman. In addition, my office and 
FEMA have just reestablished the Floodplain Management Task 
Force that was originally instituted, I think, in the early 
1990s, but we are sort of re-energizing that because we think 
it is a really important issue for us to be looking at on a 
number of fronts, not only for floodplain management, but also 
for some of the other Executive Orders that have been issued in 
this area, as well as of how our programs overlap and can be 
better managed.
    Mr. Oberstar. General, do you have any comment?
    General Van Antwerp. I would just make one quick additional 
comment that under the Principles and Guidelines, one of the 
aspects is really the nonstructural use of floodplains, which 
is also very wise. It is also in the Principles and Guidelines 
as one of the big factors, how do we use those floodplains, and 
where possible could you have a nonstructural solution as part 
of the flood-control measures?
    Mr. Oberstar. "Nonstructural" is becoming kind of the 
watchword. It has been around for a long time. It certainly is 
a lower-cost way to deal with issues, and one nature has itself 
implemented over centuries.
    The final question, I think, for me is the draft revisions 
to the planning Principles and Guidelines and standards, where 
does that stand right now, and how is this process moving 
forward, and what steps have you taken to engage the public in 
this procedure?
    Ms. Darcy. The draft for the Principles and Guidelines was 
released on December 9th. It was released and transmitted to 
the National Academy of Sciences for review. Concurrently it 
was put out for public review and comment for I believe it was 
60 or 90 days. But it has been extended through next month for 
public review and comment. And that public review and comment 
will be considered not only by the Academy, but then finally by 
the interagency group headed by CEQ that will review it before 
it goes final.
    Mr. Oberstar. So you expect by April--you said by the end 
of April?
    Ms. Darcy. I think the public comment period ends April 
5th.
    Mr. Oberstar. Okay. Mr. Boozman, do you have any other----
    Ms. Darcy. Sir, it is also up on the Web site.
    Mr. Oberstar. Okay. On the Web site that we----
    Ms. Darcy. Just click on it.
    Mr. Oberstar. Supposedly.
    Mr. Boozman. Just one thing real quick. I know that our 
witnesses have to go. And again, we appreciate you being here.
    Section 5001 directs the Corps to assume maintenance of 
specified navigation channels upon a determination that the 
assumption would be in the best Federal interest. However, the 
Corps has interpreted this as requiring a full feasibility 
study of the existing project, and I know there is some wording 
in there that--but the reality is that as it is interpreted 
now, the study can cost much more than the actual assuming the 
maintenance.
    Would you all--you can comment on that if you would like, 
or you can just look into that and just see--again, just make 
sure that we are looking hard at that and not getting ourselves 
in a situation where we all agree that the thing was built in 
such a manner that it is economically in the best interests of 
our country, the language is in the bill, but not to make it 
such where the study costs tremendously more than if we just 
did the maintenance in the first place.
    Ms. Darcy. We will look into that.
    Mr. Oberstar. Back to the question about the concurrency of 
review, and Committee staff counsel passed me a note that the 
Corps has not yet issued the guidance to implement that 
legislative language.
    Ms. Darcy. For----
    Mr. Oberstar. In section 2045 of WRDA 2007, the 
streamlining of the review process. Would you take a look at 
that?
    Ms. Darcy. That guidance--you are correct. We will try to 
get a date for when it will be done, too.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 55276.039
    
    Mr. Oberstar. Do you have anything else to say in your own 
defense?
    Ms. Darcy. I thought we did all right.
    Mr. Oberstar. You are very forthcoming, and I think we have 
a better understanding of where the Corps and where your 
office, Ms. Darcy, stands in implementing WRDA 2007. Very 
important for us as we proceed with the next water resources 
bill.
    And just as a message to the administration, whoever they 
are, the President and his inner circle and other circles 
within the circle, they have underfunded the Corps in their 
proposed budget for 2011 again. This is supposed to be the 
administration of change, and, "yes, we can." And the needs are 
huge.
    And you were here, Ms. Darcy, for our oversight of the 
continuing review of the implementation of the stimulus bill. 
And, by the way, my report card, now we have 1 million, 91,000 
total employment, direct, indirect and induced jobs. That is 
half of all of the jobs created by the stimulus that come from 
6 percent of the funding. Because our funds go out--this is my 
report card. I carry it around with me. It is updated every 30 
days or more often. And 6 percent of the funds created half of 
the jobs because we contract them. We know where they are 
going. We know the formulas, and we know the agencies.
    And I have been holding these hearings--we have had 14 
oversight hearings. And just because the Corps got this 
increment of stimulus funding should not justify what was a 
$4.5 billion--does not justify cutting the continuing budget to 
$1 billion. That is appalling. That is not the General's 
message to take back. He has got enough. You take that back.
    Ms. Darcy. I will, sir.
    Mr. Oberstar. You are the policy and appointed person. Tell 
them we are unhappy with that up here.
    Ms. Darcy. I think they will hear you.
    Mr. Oberstar. Thank you.
    Ms. Darcy. And you did ask if I had one closing thing. In 
my opening statement I did make a personal comment that I had a 
keen interest in this, and that is because of my 16 years of 
working with your Committee when I was on the Senate side, and 
it is very important to me that the implementation of that 
long-sought WRDA 2007 is done and done right. Thank you, sir.
    Mr. Oberstar. That is right. You were there. You are 
steeped in this subject. So take the message back and tell OMB, 
get on with it. Look, the European community is building a 
2,000-mile canal through the heart of Europe to link the North 
Sea to the Black Sea. It is hundreds of millions of euros. It 
is part of the $1.4 trillion infrastructure investment program. 
They are halfway through with it. We need to do that at least 
on the Mississippi, Ohio, Illinois Rivers. And I have already 
talked about the five locks on the Mississippi that need to be 
the quality of Lock and Dam 26, on the Illinois, and Europe is 
going to have this project done before we ever get these five 
locks off the ground. Or in the ground is the proper term for 
it.
    So take that message back. We are falling behind the rest 
of the world. This is just not tolerable. Free the Corps. Let 
it do what it does best. Give them the money to proceed.
    Alright. Thank you. The panel is dismissed.
    Mr. Oberstar. We have our next panel--Michael Leone, Port 
Director, Maritime Administration, Massport; Mr. David Conrad, 
Senior Water Resources Specialist from National Wildlife 
Federation; Mr. Steve Fitzgerald, Flood Committee Chair, Harris 
County Flood Control District of the National Association of 
Flood and Stormwater Management Agencies; Brian Pallasch, Water 
Resources Coalition, American Society of Civil Engineers; Amy 
Larson, president of the National Waterways Conference.
    Alright. Mr. Leone, I started with you in the naming, and 
you are first listed in the agenda, so you are first up.

    TESTIMONY OF MICHAEL A. LEONE, PORT DIRECTOR, MARITIME 
   ADMINISTRATION, MASSACHUSETTS PORT AUTHORITY (MASSPORT), 
  AMERICAN ASSOCIATION OF PORT AUTHORITIES; DAVID R. CONRAD, 
     SENIOR WATER RESOURCES SPECIALIST, NATIONAL WILDLIFE 
  FEDERATION; STEVE FITZGERALD, FLOOD COMMITTEE CHAIR, HARRIS 
  COUNTY FLOOD CONTROL DISTRICT, THE NATIONAL ASSOCIATION OF 
   FLOOD AND STORMWATER MANAGEMENT AGENCIES (NAFSMA); BRIAN 
PALLASCH, COCHAIR, WATER RESOURCES COALITION, AMERICAN SOCIETY 
 OF CIVIL ENGINEERS; AND AMY LARSON, ESQ., PRESIDENT, NATIONAL 
                      WATERWAYS CONFERENCE

    Mr. Leone. Thank you, Chairman Oberstar. And thank you for 
the opportunity to provide testimony on the implementation of 
the Water Resources Development Act of 2007. I am Michael 
Leone, director of the Port of Boston for the Massachusetts 
Port Authority.
    Mr. Oberstar. We should have pronounced it Leone.
    Mr. Leone. But I appear today as the Chairman of the Board 
of the American Association of Port Authorities, which 
represents the interests of the leading U.S. public port 
authorities, as well as public port authorities throughout the 
Western Hemisphere from Canada, Argentina, including the 
Caribbean.
    I will direct my comments today to several of the policy 
provisions included in the 2007 act, specifically that set of 
provisions in Title II, the general provisions which deal with 
the Corps' project development and review. In the 2007 act, 
Congress directed a number of management measures aimed at 
improving the efficiency, reliability and responsiveness of the 
Corps' project development and implementation processes. Today 
I would like to share our observations on the impact of the 
changes and pursue the question of meeting the intended goals.
    As a project development review, there are two areas of 
concern, sections 2034 dealing with independent peer review, 
and section 2045, project streamlining, that should be given 
additional consideration by the Committee. Both sections deal 
with review of project reports at different times in the 
project-development process and with varying scope. The issue 
that is not addressed is one of timing, when the reviews occur.
    We do not believe that the Corps' current process is 
consistent with the intent of sections 2034 and 2045 to assure 
both thorough and streamlined review of project reports. We 
believe that the review, as quality control, needs to start at 
the beginning of a study, involve the local sponsor, district 
and higher headquarters and/or independent entity, and be 
continuous throughout the phases of the study. There should be 
no surprises at the end of a cost-shared 4- to 6-year 
multimillion-dollar study effort.
    In my own case, Massport has invested 10 years and several 
million dollars towards a feasibility study to deepen Boston 
Harbor, which so far as been rejected twice by the Corps' 
headquarter staff after a late-stage review surfaced 
differences of opinion within the Corps on the economic study 
parameters. There is no end in sight in pursuit of an approved 
chief's report. In the meantime, we are losing jobs and 
business.
    There are currently many channel-deepening studies under 
way throughout the country that are required to handle 
increasingly larger vessels and for the Nation to remain 
competitive in global markets. Some have been stalled for many 
years and are not advancing because of technical or policy 
conflicts among reviewers, the study teams and the project 
sponsor. We are hopeful that when fully implemented, the 
revised project development and review sections of WRDA 2007 
will result in improvements in the overall project-delivery 
process, and we ask the Committee to monitor that progress with 
us.
    A related area of concern in section 2033(e) is that of 
centers of expertise. We have yet to see a viable and fully 
operational center of expertise for deep-draft navigation. We 
believe it is a critical missing link in fully implementing 
section 2045 and streamlining the project-delivery process and 
improving the quality of the planning and review process. 
Attrition and downsizing have had a noticeable effect on the 
ability of the Corps districts to perform all of the technical 
and economic studies necessary to formulate a project. Work is 
often spread among districts with mixed results.
    We believe a deep-draft center of expertise with a 
dedicated full-time cadre of subject matter experts can pay 
many dividends in providing the most technically competent, 
efficient and cost-effective project-delivery system in a 
central location. The Corps' Inland Navigation Center of 
Expertise has been fully operational since 1981 and provides 
world-class products to Corps districts in the navigation 
industry. So we know what success looks like and would like to 
see that replicated for the deep-draft navigation to the 
benefit of all four coasts. We are working with the Corps on 
the center of expertise concept through our Quality Partnership 
Initiative and ask for the Committee's continued support as 
well.
    Additionally, sections 2005 and 2029 of WRDA 2007 speak to 
the need for adequate dredge material management, beneficial 
use of recovered sediments, and use of multiple factors in 
judging the benefits to the Nation for investing in maintenance 
dredging. However, we believe it is time to revisit the 24-
year-old Harbor Maintenance Tax and Trust Fund authorized in 
1986 that is the sole source for reimbursement of Federal 
maintenance dredging funding. Port and harbor users are paying 
for the full maintenance and getting half in return. The tax 
revenue of about $1.4 billion annually would be adequate to 
maintain Federal channels if fully applied.
    Congressional intent notwithstanding, there is no provision 
in the original authorization to dedicate that tax revenue for 
its intended purpose. We ask the Committee to consider 
legislative provisions to ensure full use of the tax for 
maintenance dredging in the subsequent WRDA, hopefully this 
year.
    And finally, Mr. Chairman, I would like to commend your 
leadership for section 3091 of the 2007 act, which finally 
provided a resolution and direction necessary to get the 
construction started at the Sault Ste. Marie for the second 
lock. This is a project of national significance that directly 
impacts the Great Lakes and St. Lawrence Seaway portions of our 
national freight system. Our Great Lakes Members look forward 
to the jobs, efficiencies and transportation cost savings the 
new project will bring.
    Again, thank you for including the American Association of 
Port Authorities in these proceedings.
    Mr. Oberstar. Thank you very much, Mr. Leone.
    Mr. Oberstar. I do appreciate all of your comments, but 
especially the latter. It is nice to have that attention paid 
to the needs of the Great Lakes from the association, and just 
a quick question before out next witness. What is your current 
channel depth? Is it 38 feet?
    Mr. Leone. We are 40 feet.
    Mr. Oberstar. And you want to go to 45? The Corps wants you 
to go to 48?
    Mr. Leone. In the initial study we felt we needed to go to 
45 feet, but when the analysis was completed, the local 
district determined that 48 was probably the optimum depth for 
us. We feel that 45 would be adequate, but we are arguing on 
the economic parameters as to whether it is 48 or 47. So we are 
doing numerous studies, and as a result of this 10-year process 
and the multimillion dollars we have spent, we have yet to 
reach a resolution as to what is the correct depth and what the 
correct benefit-cost ratio would be.
    Mr. Oberstar. We can pursue that further and perhaps in 
another venue. But it is of great interest to me with the 
opening of the Panama Canal, and the larger-capacity vessels 
coming to all of our seacoasts and to the gulf, with container 
transport possibly upbound on the Mississippi, ports have to be 
ready with the proper channel depth to accommodate this whole 
new post-Panamax capacity. And I don't know if the--if Maersk 
calls on the Port of Boston, but Sally Maersk and Regina Maersk 
with 6,000 and 6,600 containers respectively have now been 
outdistanced by the newest class of Maersk vessels with 13,000 
containers at a 50-foot channel depth requirement. Those are 
going to call--or if you want them to call on your port or 
other east coast ports, you have got to have that channel 
updated. And you cannot do it 5 years from now, you need to 
start doing it now.
    Mr. Leone. Mr. Chairman, you are absolutely correct. And I 
think many ports along the gulf and east coast are trying to 
prepare. Not everyone needs to have 50 feet, but there are 
numerous ports that will need it. And that is why we have been 
preparing for many, many years, as other ports have done so.
    So it is important to get the authorization necessary 
because we are in the process of also dredging our own berths 
at our own cost, buying cranes that can handle these larger 
vessels. So we are making the terminal infrastructure, but it 
is very, very important, it is essential, to have that highway, 
the Federal channel, into your berth.
    Mr. Oberstar. Thank you. Mr. Conrad, thanks for being with 
us, and thank you for the great work of the National Wildlife 
Federation for these many years when I started up here as a 
clerk of the Subcommittee on Rivers and Harbors.
    Mr. Conrad. Thank you very much, Mr. Chairman and 
Congresswoman Boozman. On behalf of the National Wildlife 
Federation, we deeply appreciate the interest and work of this 
Committee on providing oversight for the Corps program.
    We have a lengthy statement for the record, which I will do 
my best to summarize. We have particularly focused on what we 
believe to be among the most critical WRDA reform areas, the 
peer review, mitigation of fish and wildlife and wetland 
losses, and revision of the principles and guidelines. But 
first I want to speak to the reform issues in their context.
    These WRDA reform provisions were enacted in the wake of 
the terrible consequences of Hurricane Katrina and a series of 
damaging hurricanes and storms in 2004 and 2005. In addition, 
the Nation was growing increasingly aware of the threats of 
climate change and sea level rise, continued deterioration of 
critical fish and wildlife habitat and health of natural 
ecosystems, and increasingly severe instances of flooding and 
drought conditions.
    After the findings emerged about the background and 
conditions of the New Orleans--this levees in New Orleans, this 
was, in essence, as much a manmade disaster as a natural 
disaster, many felt that the WRDA reforms were all the more 
necessary. These were also adopted against a backdrop of the 
General Accounting Office--or the Government Accountability 
Office having reported that recent Corps studies "did not 
provide a reasonable basis for decisionmaking"; that they were 
"fraught with errors, mistakes and miscalculations, and used 
invalid assumptions and outdated data." Those are all in 
quotes. GAO also testified failings were "systemic in nature 
and therefore prevalent"--"and therefore prevalent throughout 
the Corps Civil Works portfolio." That confirmed a pattern of 
egregious pattern flaws that have been revealed by more than a 
decade of analysis of NAS, GAO, Army inspector general, 
independent reports, and such as the coastal Louisiana levees 
and the Upper Mississippi lock expansions.
    These reforms are not just about technical planning matters 
and minute details of the law. We have received major wake-up 
calls that the impacts of activities of the Corps of Engineers 
have profound impacts and implications for our citizens, the 
environment and the Nation's future development. We cannot 
simply do things the same way.
    Mr. Chairman, we have reviewed the guidance and extensive 
amount of material provided by Assistant Secretary Darcy and 
the Corps. On the whole we found that to date the 
implementation of these reform provisions in many cases is 
barely under way. Guidance prepared in many ways falls short, 
in some cases far short, of what we believe Congress and the 
law intended, and the objectives sought in the WRDA reforms are 
still mostly unimplemented.
    On independent peer review, we would first applaud the 
Corps for at least broadly embracing the concept of peer review 
even beyond that required by WRDA. But on the ground, WRDA's 
independent review process--WRDA's independent review process, 
we find the process has been weakly implemented, is highly 
obscure, and has failed to involve the public, and is almost 
completely out of public sight. The Corps reported that in 13 
of 14 ongoing completed external peer reviews, and 4 of the 5 
ones that were completed among those, the reviewers had not 
taken any public testimony or otherwise obtained public input. 
Conversations with conservation activists and State officials 
across the country have shown a near universal lack of 
awareness of and lack of public involvement in these processes. 
Locating review plans and completed IEPR reports on district 
Web sites is in many cases difficult or impossible. Reviewers' 
names can generally not be located until after reports are 
completed.
    We believe Corps guidance and the lack of public input will 
likely discourage review panels from reviewing issues outside 
whatever is included in the charge set by the Corps' 
contractor. This would defeat some of the main purposes of 
external review.
    On mitigation of fish and wildlife and wetlands, we looked 
extensively at implementation of the new section 2036 
provisions. We are extremely concerned that the compliance with 
these provisions appears to be lagging. WRDA added great 
specificity to the definition of mitigation plans: standards 
for in-kind mitigation, requirements for ongoing monitoring and 
consultation with Federal agencies and States, and reporting 
annually to Congress on progress for ecological success, and 
contingency plans for speeding progress where progress was not 
being made. Regrettably, our review found implementing guidance 
and mitigation plans developed by the Corps demonstrating that 
the Corps had made little progress in complying with even the 
most basic of mitigation reforms.
    In one example we cited, a waterway channel improvement 
project, the Galveston district of the Corps concluded that 
resources which were not nationally or otherwise significant 
need not be mitigated. Such a standard, which is directly 
contrary to section 2036, would likely result in far less 
mitigation than WRDA requires.
    We reviewed documentation of 32 projects the Corps said 
fell within parameters of the Senators' request for 
information, and in 17 projects for which we could locate 
adequate information for a judgment beyond those with 
negligible impacts, we found all 17 essentially out of 
compliance with WRDA's requirements, and in some in unusually 
multiple major ways. The process for monitoring ecological 
success is essentially unimplemented, in our opinion.
    Finally on principles and guidelines, Mr. Chairman, WRDA 
2007 enacted a new water policy that requires a fundamentally 
different approach to water resources project planning, and 
directs the Secretary to develop new planning principles, 
guidelines and procedures to modernize water planning.
    We are very pleased that the White House Council on 
Environmental Quality has taken on a key role in facilitating 
the revision and updating the principles and standards. We also 
applaud Congress for directing attention to the need to update 
water resources planning, and applaud the administration for 
recognizing its importance across the Federal Government.
    A new PNS provision proposal is now set to receive public 
and NAS comments, and we recognize the process will 
appropriately take considerable time to unfold. But the 
potential long-term benefits to the Nation make this a highly 
important exercise.
    In our written statement we raise critical concerns that 
planning should be driven by Federal law and policy, not simply 
by benefit-cost-only framework. Environmental protection and 
restoration need to be fundamental objectives for water 
planning in the 21st century.
    We are also concerned that economic requirements not 
undermine the new policy requirements to protect and restore 
natural ecosystem functions. And a base of science, including 
recognition of climate change and sea level rise, and greater 
emphasis on nonstructural approaches in integrated water 
resources planning is essential to a modernized planning 
process.
    Mr. Chairman and Congressman Boozman, once again on behalf 
of the Federation, we greatly appreciate the efforts being made 
by the Committee to follow up progress of implementing the 
reforms of WRDA 2007. I would be happy to answer any questions. 
Thank you.
    Mr. Oberstar. Thank you very much for a very thorough 
statement. And, of course, your entire document will be 
included in the Committee record.
    Mr. Oberstar. And now Mr. Fitzgerald.
    Mr. Fitzgerald. Thank you, Chairman, Mr. Boozman.
    The National Association of Flood and Stormwater Management 
Agencies, or NAFSMA, we represent about 100 Members, mostly 
large urban agencies, and about 76 million citizens. Our 
Members on the front line are reducing loss of life and 
property damage from floods, improving the quality of the 
Nation's surface waters and riparian habitats, and helping 
guide the design and construction of low-flood-risk and 
affordable communities.
    NAFSMA not only supported passage of WRDA 2007, but our 
Members have experience complying with it in previous WRDA 
bills as partners with the Corps of Engineers. We recognize the 
Corps has had a challenge developing guidance for such a large 
bill, but they have done a good job setting priorities. From a 
local perspective, most active studies and projects are not 
being held up waiting for new implementation guidance.
    My testimony today will focus on four of the general 
provisions in WRDA 2007; first, independent peer review. It 
takes multidisciplinary teams to address the many 
interdependent and interrelated factors that influence 
analysis, evaluation and decisions. Our Members welcome any 
assistance provided, provided it is helpful in advancing the 
study, results in a better project and does not hinder 
progress.
    In practice, some feasibility studies that were near 
completion have been delayed to comply with new peer-review 
requirements, with no substantial improvement in the 
recommended course of action. We believe peer review will be 
beneficial when it is actually utilized as stated in the bill. 
In all cases, the peer review shall be accomplished concurrent 
with conducting the project study.
    The second provision, the principles and guidelines 
updates. As you would expect, we have been active in this 
effort. While NAFSMA supports and agrees with most of the draft 
principles and standards issued by CEQ in December, we feel 
there are some areas where clarifications and emphasis is 
needed. First, while some believe that historically there has 
been a bias towards economic benefit, it is imperative that 
future water resources planning emphasize the balance and 
recognize interdependence of economic, environmental, public 
safety and social factors. Easier said than done.
    Next, the non-Federal sponsor is an active partner with the 
Federal Government in terms of contributing funding, local 
knowledge and expertise. Active participation by the non-
Federal sponsor during all phases of the planning process is 
critical to the success of the study and subsequent project.
    And finally, NAFSMA members are concerned that the new 
principles and guidelines will make the planning process even 
longer, more expensive and more complex than it is now. 
Resources, funding and patience are limited. To fully 
appreciate how the proposed standards will change the planning 
process, NAFSMA recommends that the Corps and NAFSMA work 
through an example flood risk reduction study from initiation 
to completion while the National Academy of Sciences is 
preparing its comments.
    The third provision I want to address is actually two: 
planning and streamlining. The current process that I mentioned 
has evolved into such a long and costly exercise that doesn't 
necessarily yield better decisions or projects. So what are we 
doing about it? Well, the inclusion of these two provisions in 
WRDA 2007 was a good first step.
    Mr. Fitzgerald. A NAFSMA work group has identified four 
basic problem areas and is developing alternatives to address 
them. We understand the Corps' senior leadership and Secretary 
Darcy's office have made this a priority as well. It will take 
a sincere, considerable, and collaborative effort from local 
sponsors, the Corps, and Congress to make significant 
improvements.
    Finally, the National Levee Safety Program. The National 
Committee on Levee Safety carried out the necessary work, 
prepared an excellent report, and continues to function 
effectively and productively. National believes that 
significant progress has been made on several of the 
Committee's 20 recommendations since your hearing on this topic 
last May.
    For example, the Corps and FEMA have made substantial 
progress completing the National Levee Inventory and Database. 
However, additional authority is needed to include data for 
those levees owned and operated by non-Federal entities. Much 
work is still needed to improve levee safety in this Nation.
    In closing, WRDA 2007 was a much-needed piece of 
legislation that helped our Nation move forward. It is now time 
to take the next step forward by pursuing the passage of WRDA 
2010 to continue our critical water resource needs and protect 
the Nation's population, environment, and critical 
infrastructure.
    Thank you for inviting local sponsors to make this 
presentation today before the Committee.
    Mr. Oberstar. Thank you very much for your testimony, and I 
appreciate your participation today.
    Our next is the Water Resources Coalition.
    Mr. Pallasch, thank you for being here.
    Mr. Pallasch. Thank you, Mr. Chairman, Members of the 
Committee. I appreciate being here.
    My name is Brian Pallasch, and I am the co-chair of the 
Water Resources Coalition and managing director of Government 
Relations and Infrastructure Initiatives at the American 
Society of Civil Engineers. I am pleased to appear before you 
today as we talk about the implementation of WRDA 2007.
    Title II of WRDA 2007 contains many key policy requirements 
for the Corps to complete on independent peer review, dredge 
material disposal, technical assistance, access to water, data, 
planning, shore protection projects, and other program 
requirements. Title IX called on the establishment of the 
National Committee on Levee Safety.
    First, I want to talk a little bit about principles and 
guidelines.
    In December of 2009, as many of my colleagues have noted, 
the White House Council on Environmental Quality released for 
public comment its version of the principles and guidelines. 
The Water Resources Coalition believes the current proposal 
fails to meet the congressional intent and still needs to be 
reworked.
    First, the proposal speaks to the need to incorporate 
public safety into the planning process, but it does not 
continue the discussion of the obvious ways to achieve the 
goal. Specifically, nothing in the proposal identifies the 
unequivocal need for resiliency in the design and construction 
of Federal civil engineering projects. In engineering terms, 
resiliency is the ability of an infrastructure system to 
recover its function after it is damaged by a natural disaster 
or a man-made attack.
    Sustainability and resiliency must be an integral part of 
improving the Nation's infrastructure. Today's infrastructure, 
especially flood control systems, must be able to respond to 
and change with dynamic conditions. By incorporating 
resiliency, disasters will pose less of a threat to public 
health and will minimize disruptions to our economy.
    Second, the proposal's discussion of the use of cost-
benefit analysis and the development of water resource projects 
is flawed. The CEQ needs to explain in some detail how it will 
require cost-benefit analysis to be employed and especially how 
it will be possible to monetize the social or environmental 
benefits of projects and how these benefits can be compared to 
economic benefits and public safety.
    Nearly 5 years after the devastation of Hurricane Katrina 
and 1 year after the release of the National Committee on Levee 
Safety's recommendations, Congress has still not acted to 
create a National Levee Safety Program. While the Corps of 
Engineers has begun work and made significant progress, there 
is no comprehensive and dependable catalog of the location, 
ownership, condition, hazard potential of all of the levees in 
the United States.
    As of February 15, the Corps had inventoried or contracted 
for inspection approximately two-thirds of the more than 14,000 
miles of Federal levees. Another 21 percent of the levee 
mileage is under contract for inventory and inspection. 
However, by some estimates, there are more than 100,000 miles 
of levees in the United States. We still have a long way to go 
to complete a national inventory of levees.
    Title IX of WRDA created the National Levee Safety Program 
Committee; and the goal of a robust nationwide levee safety 
program, though, remains an aspiration rather than a reality 
today.
    The Committee on Levee Safety submitted its interim report 
with the Office of Management and Budget in January of 2009. We 
feel very strongly that Congress should adopt many of the 
recommendations of that Committee and enact legislation to 
establish a national levee safety program. We also feel 
strongly that this program could be modeled on the successful 
National Dam Safety Program and possibly merged with that 
program.
    Additionally, Congress should also examine FEMA's 
certification rule for levees. Congress should direct FEMA to 
amend the rule to change the requirement from a certification 
to an NFIP evaluation. The term "NFIP evaluation" is preferable 
over the present "certification requirement" to make it clear 
that an evaluation is merely a judgment that a levee system is 
in conformity with the requirements of NFIP regulations.
    The National Shoreline Erosion Control Development Program 
was established by section 227 of WRDA back in 1992. It is 
designed to test new technologies that will improve or reduce 
the cost of Federal beach restoration projects. There are 
currently seven testing sites being used by the Corps.
    Section 2038 of WRDA 2007 contains important modifications 
to that program. For example, the original section 227 program 
did not permit the Corps to cost share these projects with 
local governments. In addition, where technology was 
demonstrated to work, section 227 did not permit the technology 
to be seamlessly integrated into existing Federal beach 
restoration projects. These weaknesses have been corrected in 
section 2038.
    Currently, the Corps has issued no guidance on this 
program. This is an important program. Coastal areas of the 
Nation are at risk from serious storms that endanger lives and 
property. We cannot afford a lack of implementation guidance 
for section 2038 to stall this critical program.
    With that, Mr. Chairman, I will end my remarks and be ready 
for your questions.
    Mr. Oberstar. Thank you very much, Mr. Pallasch.
    I will have some questions when we come back, but I would 
just observe, on the levee safety program, in light of your 
comments, that report and the recommendations are being crafted 
in legislative language to be included in the water resources 
bill for fiscal year 2011.
    Ms. Larson, you are next.
    Ms. Larson. Thank you, Mr. Chairman, Mr. Boozman.
    My name is Amy Larson. I am the President of the National 
Waterways Conference.
    The Conference, established in 1960, includes in its 
membership the full spectrum of water resources stakeholders, 
including flood control associations, levee boards, waterways 
carriers and shippers, industry and regional associations, port 
authorities, shipyards, dredging contractors, regional water 
supply districts, engineering consultants, and State and local 
governments. Given our diversity, our membership is keenly 
interested in the development of planning of all types of water 
resources projects.
    My comments today will be focused on the principles and 
guidelines applicable to the planning and development of water 
resources projects and the proposal issued by the Council on 
Environmental Quality related to this effort.
    Attached to my written statement is a copy of the comments 
the Conference submitted to CEQ in response to its proposal, 
and I respectfully request that they be included in the record 
here.
    Mr. Oberstar. Without objection, so ordered.
    Ms. Larson. As this Committee well knows, reliable, well-
maintained water resources infrastructure is fundamental to 
America's economic and environmental well-being and is 
essential to maintaining our competitive position within the 
global economy.
    Our water resources infrastructure provides lifesaving 
flood control, navigation critical to national security and 
commerce, abundant water supplies, shore protection, water 
recreation, environmental restoration, and hydropower 
production. As a consequence, the planning and development of 
water resources projects are vitally important. With that in 
mind, we are very concerned that CEQ's proposal falls short of 
enacting a policy model envisioned by Congress in enacting the 
Water Resources Development Act of 2007.
    At the outset, water resources planning ought to be 
governed by a well-defined set of overarching principles which 
set forth the national interest in water resources development, 
management, and protection. The principles should establish a 
clear, concise, and workable planning framework to guide the 
development of project recommendations through an unbiased, 
scientifically sound analysis; and they must recognize the 
critical role nonFederal sponsors play in project formulation 
and development.
    Fundamentally, these revised principles should strengthen 
the executive branch's ability to recommend to the Congress 
economically and environmentally sound projects; and they must 
be clear enough to drive understandable processes and 
replicable outcomes, thus enabling the nonFederal interests to 
make complementary plans.
    Unfortunately, the proposal issued by the Council on 
Environmental Quality fundamentally fails to establish a path 
to balanced solutions, clear and consistent guidance to 
planners, or replicable results that are understandable to all 
stakeholders. At the outset, the proposal doesn't really 
establish a workable set of principles at all, but instead uses 
the concepts of principles, guidelines, standards, and 
procedures interchangeably so that the proposal itself is 
confusing and unworkable.
    WRDA 2007 contemplates planning founded upon multiple 
national objectives--economic, environmental, and social well-
being, including a public safety objective. And, additionally, 
WRDA 2007 emphasizes a watershed approach to planning, 
recognizing the importance of collaborative planning and 
implementation.
    We are concerned that CEQ's proposal, an apparent 
contradiction of the directive in WRDA 2007, does not promote 
coequal objectives in water resources planning but, instead, 
elevates environmental considerations at the expense of 
economic benefits. This approach would be especially 
detrimental to flood control, navigation and water supply 
projects.
    The proposal also sets forth a confusing approach to 
watershed planning. Although it appears to recognize the 
importance of watershed planning as called for in WRDA 2007, 
watershed plans are then explicitly excluded from the process.
    It is unclear why a comprehensive planning framework would 
exclude watershed plans; and this is particularly troubling at 
a time when our Nation, both at the Federal and State level, is 
working towards the development of collaborative watershed 
planning, rather than planning on a project basis.
    We are also concerned the proposal establishes an 
unworkable policy with regard to the use of floodplains. While 
directing avoidance of the unwise use of floodplains, the 
proposal does not provide criteria for determining what that 
would be. Instead, it appears to create a bias for selecting 
nonstructural approaches, thus limiting in practice full 
consideration of all alternatives.
    This approach ignores the recognition in WRDA 2007 that 
sometimes use of the floodplains cannot be avoided, providing 
that in such cases planners should seek to minimize adverse 
impacts and vulnerabilities. CEQ's proposal appears to preclude 
consideration of all alternatives and instead support a 
nonstructural or no-action alternative. Such a policy would be 
devastating to many communities in or near the floodplains.
    I see, Mr. Chairman, my time is up, but I would like to 
draw your attention to the procedural concerns that are 
outlined in more detail in our written comments. They are much 
more complex in those comments.
    Mr. Oberstar. Go ahead.
    Ms. Larson. But, in sum, we are concerned that the process 
does not provide the transparency needed to establish a viable, 
long-term planning model for our WRDA resources.
    Thank you, Chairman Oberstar, Mr. Boozman, for the 
opportunity to appear before you today; and I look forward to 
answering any questions you might have.
    Mr. Oberstar. Thank you, Ms. Larson.
    I do have some questions. We will proceed.
    Earlier in the hearing we had a group from Mr. Cao's 
district in New Orleans, a school that we recognized; and I 
would like to take this opportunity to acknowledge the Eveleth-
Gilbert school Close Up group who just entered the room and 
welcome them to the legislative process.
    This is an oversight hearing on the work of the Corps of 
Engineers implementing Water Resources Development Act of 2007. 
A unique bill, not only because it covered 7 years of 
authorizations needed for the work of the Corps of Engineers on 
the inland waterways, ports and harbors and flood control areas 
of the country, but also because it was unique in that the 
Congress overrode a veto to put it into effect.
    So welcome, students, to this unique hearing that the 
Committee is conducting.
    Now, Mr. Conrad, you raised concerns about the ability of 
the public to participate in independent reviews. Have you 
participated in independent review?
    Mr. Conrad. In a specific independent review, I am just 
trying to think. Well, I have been involved in a lot of 
different processes. I am not sure that I actually have been 
involved in one, directly involved in one of the new IEPRs, no.
    Mr. Oberstar. Well, what about other members of your 
organization? You say this whole process--I made special note 
of it--is highly obscured, completely out of the public eye.
    Mr. Conrad. Right.
    Mr. Oberstar. And a universal lack of awareness, that you 
searched the Internet and could not find a review plan. We had 
some discussion of that earlier with the Chief of Engineers. 
Does that characterize the current situation?
    Mr. Conrad. Well, what I would say is that there are a lot 
of projects that are listed in one of the tables that the Corps 
of Engineers provided to Congress in terms of ongoing, 
independent peer reviews. In the last few weeks, I spoke with 
conservation leaders, State, and State officials, particularly, 
and even some news media people who regularly are involved in 
those projects. And many of them--most of them, with really one 
major exception, and that was a project at Louisiana coastal 
protection, were rather shocked to hear that even though they 
had been to many, many meetings of the Corps of Engineers in 
planning those projects, they had not heard about the 
independent peer reviews that the Corps listed were under way; 
and they were, well, again, rather shocked because they thought 
they were following things very, very closely.
    That shocked me when I heard that. I began to realize this 
process is really just an internal process at the moment for 
the Corps. It is not being delivered as a process that would 
embrace any kind of public input.
    Mr. Oberstar. That is business as usual, and that is not 
what we had in mind. We had in mind in WRDA of 2007 changing 
the process, making it open to the public, transparent, and 
accessible.
    Mr. Conrad. Right.
    Mr. Oberstar. You heard the exchange I had with the 
Assistant Secretary and the General that I went on the Web, I 
couldn't find their information. Well, I am no expert on the 
Web, but I used the procedures that most everyone else would 
use, and you shouldn't have to be an expert on this thing.
    Now, do you think what General Van Antwerp said was 
sufficient, that they are going to fix the Web, that they are 
going to make this a success? Is that enough? Don't they need 
to have an active outreach?
    Mr. Conrad. I think it is going to need a lot more than 
that.
    The way the Corps--the newest Corps guidance which, by the 
way, I couldn't find on the Web either, the 209 guidance, which 
came out on January 31, the way that guidance contemplates the 
process, the review plan is supposed to be up front, and it 
would lay out when and where the review would take place.
    But what the public is going to need is to know who are the 
reviewers, that they are going to need opportunities, I think, 
to be able to communicate with reviewers. Reviewers are mostly 
dealing with technical issues, but the public, in many cases, 
has technical information that is necessary and valuable to 
reviewers.
    So I think they are going to need to create a more robust 
process than what we see so far.
    Mr. Oberstar. Your testimony suggests there are gaps in the 
Corps' mitigation program, that adverse impacts go unaddressed, 
either because the Corps doesn't consider the resource 
significant or because they don't believe that the mitigation 
is justified. But those are issues that we tried--the Corps has 
been criticized for this attitude for many, many years; and we 
tried to give them a means by which to overcome those 
objections.
    So now is there an assessment of the cumulative effect of 
unmitigated harm? Should there be one? How should it be done?
    Mr. Conrad. Well, as we looked at the fairly high degree of 
specificity that you all included in WRDA 2007 in terms of what 
should constitute plans, what they should be looking at--I am 
talking about the mitigation plans-- it is rather hard to 
understand how that could be any less clear that these are 
required with each project, that if it is nonnegligible impact, 
anything other than nonnegligible impact should be part of a 
plan, part of a plan, they should be monitored and reported 
back to Congress with consultations with State and Federal fish 
and wildlife agencies.
    All of these different processes, unfortunately, they just 
haven't been implemented yet. Cumulative effects should 
definitely be part of that, I would think. I think we may have 
to look very closely to see what else could bring the Corps to 
be more responsive to that.
    Mr. Oberstar. Well, the National Wildlife Federation has 
been engaged in these processes for decades, beginning when I 
started here on Capitol Hill; and we need to take--pay careful 
attention to those comments. We want to be sure that all 
organizations are included.
    Now, let me yield to Mr. Boozman for such questions as he 
may have.
    Mr. Boozman. Thank you. Thank you very much.
    Mr. Pallasch, the WRDA 2007 authorized a rewrite--or there 
is a rewriting of the principles and guidelines. In your 
opinion, how has CEQ strayed from what ASCE thought it was 
advocating. Does that make sense? I know that you all were 
supportive in the sense of going forward and looking at this. 
Do you have concerns now that maybe we are straying a little 
bit beyond what you thought would be the case?
    Mr. Pallasch. Sure, Congressman. I think one area that we 
have great concern, especially after our experience with 
Hurricane Katrina and working with the Corps of Engineers, is 
this concept of public safety. I think the principles and 
guidelines started with a single approach of looking at the 
economic benefits of a project. Obviously, the environmental 
benefits and environmental issues came into play; and that is 
an acceptable second leg of the stool, if we want to think of 
it as that.
    I would, ASCE and the Coalition, the Water Resources 
Coalition, feels very strongly that public safety needs really 
to be the third leg of that stool. As we look at--when you are 
looking at a project, certainly when you are talking about 
flood control projects, levees, and things like that, public 
safety is paramount when we are looking at those types of 
activities.
    We also have some concerns, as you try to monetize the 
environmental benefits, that there is no agreed-upon 
monetization of that, if you will.
    I am not an economist, but certainly there is a lot of 
skepticism as to how we approach that issue, and I think the 
same is probably true to be said for public safety. So we have 
those concerns. Certainly we are going to be filing our 
comments. We got an extra 30 days, I guess, yesterday so we are 
pleased to have a little bit more time to comb through the 
document.
    Mr. Boozman. Can you comment on that, Ms. Larson? I guess I 
would like to know what you feel like CEQ is doing to ensure 
public involvement, making sure that organizations like yours 
are able to petition the Federal Government.
    Mr. Pallasch. I think at the beginning of the process the 
Water Resources Coalition was rather frustrated by the 
switching of the process, shall we say. The Corps of Engineers 
was in charge. You all gave them the charge of rewriting the 
principles and guidelines, and certainly ASCE supported that. 
We had some of our members who were calling for that over their 
lifetime of using that document.
    In the middle of the game, shall we say, we a little bit 
changed the rules. And CEQ was put in charge, and we expanded 
it from being a rewrite simply for the Corps to going to all of 
the groups that were involved, and I think it is actually a 
little bit broader than just the four agencies.
    Not that that maybe wasn't the right thing to do, to expand 
it a little bit. I think there were some time issues involved 
in that where there was only a 30-day comment at the beginning, 
and I think we would have been better served with a little bit 
more of an open process.
    Mr. Boozman. Ms. Larson.
    Ms. Larson. Thank you, Mr. Boozman.
    We have substantive as well as procedural concerns with it. 
At the outset is the question of whether the agency with the 
most expertise in water resources planning is at the helm here, 
and we have serious concerns about that. I don't think it 
should be CEQ.
    With respect to the substantive concerns, as I stated in my 
remarks, there really is no set of principles that is 
established; and we are concerned that if we are looking for a 
viable long-term planning model, this document doesn't have 
that for a variety of reasons, including that it is confusing 
and unworkable but also that it elevates environmental over 
economic. There is really no balance there, which would be 
devastating to the navigation and flood control projects. It 
promotes a nonstructural approach to floodplain use, sort of a 
biased approach there without that balance as well.
    Those are the substantive concerns in a nutshell.
    On the process side, I have two concerns about that as 
well.
    First, the second phase of this process is already started. 
That is the development of the guidelines. I am saying 
guidelines. They have an interchange of words here. But that 
seems a bit premature. How can one develop guidelines when the 
principles are not established? Principles should be the 
foundation. You can't build a house without the foundation 
properly built, so they seem to be getting ahead of themselves.
    The other part of this is a procedural due process concern, 
and it falls back on the Administrative Procedure Act. Now, I 
recognize this is not construed at the moment as a notice and 
comment type of rulemaking. But in a notice and comment type of 
rulemaking, an agency is required to at least respond to and 
address the comments. Failure to do so would be considered 
arbitrary and capricious and grounds for reversing that 
decision in the Court of Appeals.
    At this point, the CEQ has not explained what the process 
is, how any comments will be addressed, how they will be heard. 
That could be, in an agency rulemaking, something as simple as 
saying we have heard your comments, we are not persuaded 
because of these reasons, but at least setting forth that 
explanation. We don't even have that at this point. So, really, 
there is no transparency. And if we are talking about long-term 
viable planning, this document does not set that foundation.
    Mr. Boozman. Very good. Thank you very much.
    Mr. Fitzgerald, very quickly, because we do have votes and 
I think the Chairman perhaps wants to follow up, but levee 
safety, some of my communities were, you know, got involved in 
that very early on and got in the process. It does seem, when 
you look at the timeline, the timeline really becomes pretty 
unworkable by the time you do things back and forth.
    I guess what I would like to look for is, you know, with 
your help is a little softer landing. I think our communities 
are committed to doing that, but it seems like what they are 
faced with right now is pretty significant. When you look at 
the timelines, when they are trying to act in good faith, it 
becomes a real problem.
    Mr. Fitzgerald. Yes, the timeline on identifying a project 
or making a decision has taken a long time. I am not sure what 
the average time is, but some in our community are taking 10 
years plus to go through the planning process. Some of it, as 
local sponsors, we have a responsibility to help and do our 
part. We recognize this. It is not all the Corps. We have 
responsibilities, too; and we are willing to step up to the 
plate where we can.
    But I think this has evolved over the years. You know, when 
something would go wrong, we have a human tendency to add 
another step, you know, try to make it not happen again. I 
think over the last 50 years this process has evolved into 
something that has gotten difficult to try to make work.
    The four areas that we--when we started doing a survey with 
our NAFSMA members, we were able to put the problems in four 
areas; and one of them was the process itself, it is a little 
bit unwieldy. The second is people. It takes people to do a 
study, to look at the problems, and come up with good 
solutions. So the people side is one of the areas we need to 
work on.
    Another one is the written guidance itself. It has evolved 
over time and is very difficult to kind of work your way 
through it, and that needs to be somewhat cleaned up.
    And the third one is, of course, the funding and budgeting. 
If you can have an uninterrupted funding cycle, you can get 
through the process more quickly. But I know sometimes the 
nonFederal sponsor can't come up with their finding; and that 
kind of slows it down sometimes, too. It is not only a Federal 
thing.
    But I think with the principles and guidelines updates, 
this gives us a great opportunity to look at all these areas 
and build into these guidelines and procedures that each agency 
is going to come up with to try to make sure this doesn't get 
more complicated but that we can streamline and get the 
planning process where we all would like for it to be. So I 
think we are at a good crossroads in the United States to be 
able to do that.
    Mr. Boozman. Thank, Mr. Chairman.
    Mr. Oberstar. Well, thank you for those questions, Mr. 
Boozman, and for the responses. That is what we are trying to 
get at, is a more streamlined procedure. We want to be sure 
that the public is engaged, there is openness in the process, 
transparency in what is happening but also that we move the 
whole procedure along. That is why I spent a great deal of time 
on that issue with General Van Antwerp on the matter of 
expediting.
    We have taken from the surface transportation bill of 2005 
the project-expediting language, put it into the Corps of 
Engineers' WRDA bill, and now we have taken that language and 
refined it further and put it into our next surface 
transportation authorization bill that has been reported from 
the Subcommittee.
    But we need to continue working and delivering to the 
public the product that agencies are supposed to deliver. If it 
takes 3 years to do a simple mill and overlay in a highway 
project, the public sector is not being efficient. If it takes 
14 years to do a transit project from idea to ridership, the 
public sector is not being efficient. In the meantime, bond 
issues expire, the public loses interest, projects die, and the 
same thing for the water program.
    Maybe these two goals are mutually exclusive, public 
review, the public input. I don't think so. I have been engaged 
in this--this is my 36th year in Congress, and I just--I know 
that we can make things work better.
    There are issues, some, perhaps, you can't resolve. 
Eventually, someone has to make a decision, but the process of 
getting there has to be more expeditious than it has been in 
the past.
    Now, Ms. Larson, one of the concerns raised--and you have 
done a very great, detailed comment on the draft revisions to 
the principles and standards; and I like your distinction 
between principles, which should come first, and the standards 
and implementation, second. What I have heard from the 
waterways community is that the document does not have or it 
appears that the Corps does not draft this document with their 
navigation mission in mind. Is that your review of things and 
how would you propose to adjust that?
    Ms. Larson. I would agree with that. Our structure of 
comments was on broad-based policy rather than section by 
section because it is so unwieldy and these defects, I think, 
are throughout the document. But I think overall the navigation 
mission and the flood control mission, in particular, are 
relegated to second class in this document.
    I think we need to find the appropriate balance between 
economic and human uses of our water resources and 
environmental and ecological considerations; and that includes 
ensuring that the navigation, flood control, and water supply 
projects are addressed; and it includes an unbiased look at all 
alternatives, structural and nonstructural. I think if we can 
strike that balance between economic and environmental, we can 
ensure that all the water resources projects are addressed.
    Mr. Oberstar. And in timely fashion.
    Ms. Larson. Correct.
    Mr. Oberstar. I remember, as a parenthetical observation, 
Muriel Humphrey saying to Hubert at one time, ``Hubert, a 
speech to be immortal need not be eternal.'' A review, to be 
effective, need not take forever; and that is what we are 
trying to get, a proper balance.
    Just two more questions, we have 2 minutes remaining on a 
vote.
    Mr. Fitzgerald, as we have proceeded on the oversight of 
the implementation of the requirement on the Corps to undertake 
responsible flood plain management and prepare, quote, a flood 
plain management plan designed to reduce the impacts of future 
flood events in the project area, et cetera, et cetera, do you 
have experience with implementation so far of section 402? What 
are your views on what the Corps is doing in pursuance of that 
language?
    Mr. Fitzgerald. In Harris County, the Harris County Flood 
Control District, we are very aware of this requirement and we 
and other local sponsors in the United States agree with it. 
Once we invest with the Corps or any project, a lot of time, 
effort, and money into a project to reduce flood risk, we want 
to make sure that that level of protection does not deteriorate 
over the years. That is what the important part of the flood 
plain--or that is the reason for the flood plain management 
plan, is that actions aren't taken over the years to where that 
level of flood protection deteriorates.
    We take that very seriously, and we are actively preparing 
those on a couple of projects during the study phase. I know 
the law says or the guidelines say we don't have to do it until 
after the construction is finished. That can take a long time 
to do. And while we are in the analysis and study phase, that 
is the time we need to be developing our flood plain management 
plans, and we are doing that now.
    We look forward to completing a flood control project, a 
new one, so that we can actually implement those new flood 
control plans, flood plain management plans. So we do agree 
with it. We think it is very important.
    Mr. Oberstar. Thank you.
    Mr. Pallasch, have you--that is, you personally, but also 
your organization or your members, had an opportunity to 
participate in developing the revisions to the principles and 
guidelines?
    Mr. Pallasch. Early on, when the Corps of Engineers started 
drafting their revisions, there was a couple of days' worth of 
listening sessions that they held in the Water Resources 
Coalition. ASCE, AGC, the whole list of our groups all 
participated in that.
    Since that time, once it was taken over by CEQ, it was more 
a discussion via correspondence than a listening session type 
of arrangement.
    Mr. Oberstar. So when it got out of the Corps' hands, then 
you said it became more bureaucratic, more cumbersome?
    Mr. Pallasch. I think it may have become a little bit more 
of a closed process.
    Mr. Oberstar. A closed process. Well, that is not what we 
want. We want it to be open.
    I want to thank the witnesses for their contribution and 
testimony, for your written documents, which were very, very 
helpful. They show that each has undertaken a great deal of 
time to evaluate the subject matter at hand, the review of 
WRDA; and thank also, of course, the Corps, General Van 
Antwerp, and the Assistant Secretary.
    This is the beginning of an extended review process, but it 
will lead to--at least this stage will lead to the next Water 
Resources Development Act. Lessons learned will be implemented 
in our subsequent bill.
    I also ask unanimous consent to include in the record the 
statement of the American Shore and Beach Preservation 
Association on the subject of this hearing.
    Without objection, so ordered.
    Mr. Oberstar. Since there are no other Members to pose 
questions, the hearing is adjourned.
    [Whereupon, at 4:02 p.m., the Committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 55276.108
    
    [GRAPHIC] [TIFF OMITTED] 55276.109
    
    [GRAPHIC] [TIFF OMITTED] 55276.110
    
    [GRAPHIC] [TIFF OMITTED] 55276.111
    
    [GRAPHIC] [TIFF OMITTED] 55276.112
    
    [GRAPHIC] [TIFF OMITTED] 55276.113
    
    [GRAPHIC] [TIFF OMITTED] 55276.114
    
    [GRAPHIC] [TIFF OMITTED] 55276.115
    
    [GRAPHIC] [TIFF OMITTED] 55276.116
    
    [GRAPHIC] [TIFF OMITTED] 55276.117
    
    [GRAPHIC] [TIFF OMITTED] 55276.118
    
    [GRAPHIC] [TIFF OMITTED] 55276.119
    
    [GRAPHIC] [TIFF OMITTED] 55276.120
    
    [GRAPHIC] [TIFF OMITTED] 55276.040
    
    [GRAPHIC] [TIFF OMITTED] 55276.041
    
    [GRAPHIC] [TIFF OMITTED] 55276.042
    
    [GRAPHIC] [TIFF OMITTED] 55276.043
    
    [GRAPHIC] [TIFF OMITTED] 55276.044
    
    [GRAPHIC] [TIFF OMITTED] 55276.045
    
    [GRAPHIC] [TIFF OMITTED] 55276.046
    
    [GRAPHIC] [TIFF OMITTED] 55276.047
    
    [GRAPHIC] [TIFF OMITTED] 55276.048
    
    [GRAPHIC] [TIFF OMITTED] 55276.049
    
    [GRAPHIC] [TIFF OMITTED] 55276.050
    
    [GRAPHIC] [TIFF OMITTED] 55276.051
    
    [GRAPHIC] [TIFF OMITTED] 55276.052
    
    [GRAPHIC] [TIFF OMITTED] 55276.053
    
    [GRAPHIC] [TIFF OMITTED] 55276.054
    
    [GRAPHIC] [TIFF OMITTED] 55276.055
    
    [GRAPHIC] [TIFF OMITTED] 55276.056
    
    [GRAPHIC] [TIFF OMITTED] 55276.057
    
    [GRAPHIC] [TIFF OMITTED] 55276.058
    
    [GRAPHIC] [TIFF OMITTED] 55276.059
    
    [GRAPHIC] [TIFF OMITTED] 55276.060
    
    [GRAPHIC] [TIFF OMITTED] 55276.061
    
    [GRAPHIC] [TIFF OMITTED] 55276.062
    
    [GRAPHIC] [TIFF OMITTED] 55276.063
    
    [GRAPHIC] [TIFF OMITTED] 55276.064
    
    [GRAPHIC] [TIFF OMITTED] 55276.065
    
    [GRAPHIC] [TIFF OMITTED] 55276.066
    
    [GRAPHIC] [TIFF OMITTED] 55276.067
    
    [GRAPHIC] [TIFF OMITTED] 55276.068
    
    [GRAPHIC] [TIFF OMITTED] 55276.069
    
    [GRAPHIC] [TIFF OMITTED] 55276.070
    
    [GRAPHIC] [TIFF OMITTED] 55276.071
    
    [GRAPHIC] [TIFF OMITTED] 55276.072
    
    [GRAPHIC] [TIFF OMITTED] 55276.073
    
    [GRAPHIC] [TIFF OMITTED] 55276.074
    
    [GRAPHIC] [TIFF OMITTED] 55276.075
    
    [GRAPHIC] [TIFF OMITTED] 55276.076
    
    [GRAPHIC] [TIFF OMITTED] 55276.077
    
    [GRAPHIC] [TIFF OMITTED] 55276.078
    
    [GRAPHIC] [TIFF OMITTED] 55276.079
    
    [GRAPHIC] [TIFF OMITTED] 55276.080
    
    [GRAPHIC] [TIFF OMITTED] 55276.081
    
    [GRAPHIC] [TIFF OMITTED] 55276.082
    
    [GRAPHIC] [TIFF OMITTED] 55276.083
    
    [GRAPHIC] [TIFF OMITTED] 55276.084
    
    [GRAPHIC] [TIFF OMITTED] 55276.085
    
    [GRAPHIC] [TIFF OMITTED] 55276.086
    
    [GRAPHIC] [TIFF OMITTED] 55276.087
    
    [GRAPHIC] [TIFF OMITTED] 55276.088
    
    [GRAPHIC] [TIFF OMITTED] 55276.089
    
    [GRAPHIC] [TIFF OMITTED] 55276.090
    
    [GRAPHIC] [TIFF OMITTED] 55276.091
    
    [GRAPHIC] [TIFF OMITTED] 55276.092
    
    [GRAPHIC] [TIFF OMITTED] 55276.093
    
    [GRAPHIC] [TIFF OMITTED] 55276.094
    
    [GRAPHIC] [TIFF OMITTED] 55276.095
    
    [GRAPHIC] [TIFF OMITTED] 55276.096
    
    [GRAPHIC] [TIFF OMITTED] 55276.097
    
    [GRAPHIC] [TIFF OMITTED] 55276.098
    
    [GRAPHIC] [TIFF OMITTED] 55276.099
    
    [GRAPHIC] [TIFF OMITTED] 55276.100
    
    [GRAPHIC] [TIFF OMITTED] 55276.101
    
    [GRAPHIC] [TIFF OMITTED] 55276.102
    
    [GRAPHIC] [TIFF OMITTED] 55276.103
    
    [GRAPHIC] [TIFF OMITTED] 55276.104
    
    [GRAPHIC] [TIFF OMITTED] 55276.105
    
    [GRAPHIC] [TIFF OMITTED] 55276.106
    
    [GRAPHIC] [TIFF OMITTED] 55276.107
    
    [GRAPHIC] [TIFF OMITTED] 55276.121
    
    [GRAPHIC] [TIFF OMITTED] 55276.122
    
    [GRAPHIC] [TIFF OMITTED] 55276.123
    
                                    

</pre></body></html>
